<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, APRIL 27, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:02 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard and Durbin.

                              U.S. SENATE

             Office of the Sergeant at Arms and Doorkeeper

STATEMENT OF HON. WILLIAM H. PICKLE, SERGEANT AT ARMS 
            AND DOORKEEPER
ACCOMPANIED BY:
        LYNNE HALBROOKS, DEPUTY SERGEANT AT ARMS
        J. GREG HANSON, ASSISTANT SERGEANT AT ARMS AND CHIEF 
            INFORMATION OFFICER
        CHUCK KAYLOR, ASSISTANT SERGEANT AT ARMS FOR SECURITY AND 
            EMERGENCY PREPAREDNESS
        AL CONCORDIA, ASSISTANT SERGEANT AT ARMS FOR POLICE OPERATIONS
        ESTHER GORDON, ASSISTANT SERGEANT AT ARMS FOR OPERATIONS
        RICK EDWARDS, ADMINISTRATIVE ASSISTANT AND ASSISTANT SERGEANT 
            AT ARMS
        NANCY ERICKSON, EXECUTIVE ASSISTANT

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order.
    This morning we will be taking testimony on the fiscal year 
2006 budget request for the Sergeant at Arms and Doorkeeper of 
the Senate, the U.S. Capitol Police, and the Capitol Guide 
Service.
    We welcome our witnesses this morning. First we will hear 
from the Sergeant at Arms and Doorkeeper of the Senate, Bill 
Pickle. Welcome.
    Mr. Pickle. Thank you, sir.
    Senator Allard. Fellow Coloradan, I might add. Mr. Pickle 
is accompanied by his deputy, Lynne Halbrooks, and his Chief 
Financial Officer, Chris Dey.
    The Sergeant at Arms budget request totals $220 million, an 
increase of $42 million, or 24 percent over the current year. 
The Sergeant at Arms takes care of a wide assortment of needs 
here in the Senate, ranging from ensuring our security; 
processing our mail and ensuring its safety; providing us with 
computers, Blackberries, and telephones; and carrying out 
protocol responsibilities for visiting dignitaries.
    The Sergeant at Arms' role has grown significantly since 
September 11 to include many new security and emergency 
preparedness activities. The Sergeant at Arms has accomplished 
a great deal this year, from implementing better mail 
processing protocols following the ricin attack last February, 
to preparing for the Reagan state funeral.
    Thank you for all your hard work and that of your staff, 
Mr. Pickle.
    Mr. Pickle. Thank you.
    Senator Allard. For fiscal year 2006, a large part of the 
increase SAA requests is associated with the need to replace 
our 20-year-old telephone system here in the Senate. I 
understand security needs also account for a significant 
portion of the increase, as well as information technology 
requirements.
    Following the Sergeant at Arms, Mr. Pickle will put on his 
hat as Chairman of the Capitol Police Board and he will be 
joined by fellow board members, House Sergeant at Arms Bill 
Livingood, and Architect of the Capitol Alan Hantman, and the 
Capitol Police Chief, Terry Gainer. So we are going to have 
three panels. You will be the first panel, Mr. Pickle. You will 
be one panel and then we are going to have the Police Board as 
the second panel, and then the Guide Board will be the third 
panel.
    Mr. Pickle. Yes, sir.
    Senator Allard. All right. Now in reference to the Capitol 
Police Board, the Board is requesting $290 million for the 
Capitol Police, an increase of $59.7 million, or 26 percent 
over the current year, excluding any supplemental funds which 
may be provided in the bill which is pending in conference, of 
course. The amount requested would enable the Capitol Police to 
increase sworn officers by 122, for a total of 1,714.
    Also, additional funds are needed to support new security 
equipment and systems installed in recent years.
    The Capitol Police are to be commended for all their hard 
work recently in ensuring that the Presidential inauguration 
went forward without incident.
    Finally, we will again hear from Mr. Pickle, this time as 
Chairman of the Capitol Guide Board, along with Mr. Livingood 
and Mr. Hantman. Also present is Tom Stevens, the very capable 
head of the Capitol Guide Service and a 20-year veteran of the 
Guide Service.
    The Board is requesting $4.1 million for the Guide service. 
This is an increase of $254,000 over the current budget.
    Before turning to my ranking member for his opening 
statement let me say, as I have at the other legislative branch 
hearings, that the increases being sought will be very tough to 
accommodate, as you are probably well aware of. While they may 
be meritorious, we may be left with no choice but to make 
reductions to comply with the budget resolution.
    So I ask each of you to consider carefully what your 
highest priorities might be, and which projects might be 
deferred, and whether you have looked at how to operate most 
efficiently.
    Having made those opening comments, we will now turn to 
you, Mr. Pickle, and we will hear your testimony.

                  OPENING STATEMENT OF WILLIAM PICKLE

    Mr. Pickle. Thank you, Mr. Chairman. I really appreciate 
the opportunity to be here today. It is an honor to serve the 
Senate along with the almost 900 people that we have on the 
Sergeant at Arms staff. I have my senior staff with me today 
and I would like to take just a moment to introduce them to 
you, if I may.
    Lynne Halbrooks is the Deputy Sergeant at Arms. Mr. Greg 
Hanson is the Chief Information Officer and Assistant Sergeant 
at Arms as well. Chuck Kaylor is the Assistant Sergeant at Arms 
for Security and Emergency Preparedness. Al Concordia is the 
Assistant Sergeant at Arms for Police Operations. Esther Gordon 
is our newest Assistant Sergeant at Arms for Operations. Our 
third statutory officer, Mr. Rick Edwards, is the 
Administrative Assistant and Assistant Sergeant at Arms. And 
finally and not least is Nancy Erickson, the Executive 
Assistant, and she represents the Democratic leader.
    We have made significant progress this year, and you 
touched on some of that during your opening remarks. We have 
many established plans to make this place continue to work 
better. As you know, 9/11 changed much of what we do here. It 
has changed dramatically, as many of you who have been here 
much longer than I have realize.
    As you indicated, in 2006 we are asking for $219,968,000. 
This is a substantial increase, Mr. Chairman. It is 23 percent 
more than our 2005 budget. I know it is a large increase. And I 
know how you demand fiscal responsibility, and I know how this 
subcommittee desires to keep spending down. But I think as we 
go into the testimony, and especially our written testimony, if 
we do not get into it in the questions, you will see that our 
budget request is meritorious and will enable us to meet Senate 
requirements. This request is not driven by me or my staff. It 
is driven by the needs of the Senate.
    The request will help us institutionalize many of the 
changes that we have made since 9/11, since the anthrax attack 
in 2001 and since the ricin attack last year. It will help us 
to incorporate many of these changes into our normal business 
practices.
    We are a much more agile and flexible agency since 9/11. We 
have been forced to become so. The leadership has been very 
clear that security is its number one priority for my office, 
and technology is right up there with it. It is demanded that 
we provide state-of-the-art technology to the Senate. And that 
is what we are working to do.
    The changes that we have implemented in both regards really 
ripple across the entire Sergeant at Arms organization. But 
more importantly, they ripple across the entire Senate. Before 
9/11, I would say less than 20 percent of the time spent by the 
Office of the Sergeant at Arms was dedicated to security. Today 
it is probably 50 percent. The large increase that you have 
seen in FTEs since 2001 are almost all dedicated to technology 
or security.
    We do all we can to make this institution safe. And I think 
your office, the subcommittees, and other offices realize that 
and see it. We train. We train. We train. We equip. We equip. 
We equip. And we try to make sure that people know what to do 
in an emergency.
    I am not talking about anything that is classified when I 
say that we are a target. We realize we are a target. It is 
arguable which is the number one target, the White House or the 
Capitol. But we plan for the worst and we certainly hope for 
the best. And that is our goal here, and that is why we have 
such a large budget increase.
    The other part of this budget increase, the 
telecommunications systems which you alluded to, or the 
telephone system, is a very important part of our budget. It is 
one of these expenses that we pay now or we pay later.
    As you know we have a 20-year-old telephone system. This 
system technically could go on, I guess, for many years to 
come. But it does not allow us the flexibility of using the 
voice-over Internet protocol. It does not allow us to have more 
flexibility with voice, data and video.
    There is even a bigger part of this, which I am just going 
to touch on, and that is security. The new telecommunications 
system will provide a very important security benefit to the 
Senate. It will provide redundancy, and in today's environment, 
that is critical.
    Now, can we implement this system in incremental steps? 
Yes, we can. I know that funding is going to be tough to get, 
and we will certainly work with Carrie Apostolou and do the 
best we can to meet your needs and the subcommittee's needs, 
but this project is important.
    Mr. Chairman, I am not going to belabor the point. I would 
be happy to take questions. I have some more testimony I would 
like to introduce for the record.
    Senator Allard. Without objection, we will make your full 
testimony a part of the record.
    Mr. Pickle. Thank you. I would like to end my remarks, 
however, by simply saying that I am so honored to represent the 
almost 900 people who work for the Sergeant at Arms office. 
When you look at the many hundreds of different types of 
services we perform, some people say as many as a hundred 
businesses. When you look at the job that these people do, it 
is truly remarkable. They are dedicated. They are talented. 
Many of them are with me here today. And I am so proud of them. 
And I truly think that the taxpayers get their dollar's worth 
out of these people who work for you here today. Thank you.

                           PREPARED STATEMENT

    Senator Allard. Thank you for your comments. We appreciate 
your testimony.
    [The statement follows:]
           Prepared Statement of Honorable William H. Pickle
                              introduction
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Sergeant at Arms (SAA) has made over the 
past year and our plans to enhance our contributions to the Senate in 
the coming year.
    For fiscal year 2006, the Sergeant at Arms respectfully requests a 
total budget of $219,968,000, an increase of $42,151,000 (or 23.7 
percent) over the fiscal year 2005 budget. This request will allow us 
to maintain the significant improvements and level of service we 
provided the Senate community over the past year. It will also fund 
several important initiatives including replacement of the Senate 
telephone system, state-office security enhancements, and outfitting 
the Senate space in the Capitol Visitor Center with furniture and 
equipment. Appendix A, accompanying this testimony, elaborates the 
specific components of our fiscal year 2006 budget request.
    Last year I testified before this Committee and reported on our 
progress in accomplishing two priorities: (1) ensuring the United 
States Senate is as secure and prepared for any emergency as possible; 
and (2) providing the Senate outstanding service and support, including 
the enhanced use of technology. These priorities continue to guide my 
office and we are moving forward in a number of crucial areas.
    An outstanding senior management team leads the efforts of the 
dedicated Sergeant at Arms staff. Until recently this team included 
Deputy Sergeant at Arms J. Keith Kennedy, who chose to move to the 
position of Chief of Staff of this esteemed Committee. We miss him, but 
know that his skills already have served this Committee well. I have 
tapped the very capable Lynne Halbrooks to take over as the Deputy 
Sergeant at Arms in his stead. I look forward to a great tenure with 
her. Lynne and I are joined by Administrative Assistant Rick Edwards, 
Assistant Sergeant at Arms for Security and Emergency Preparedness 
Chuck Kaylor, Assistant Sergeant at Arms for Police Operations Al 
Concordia, Assistant Sergeant at Arms and Chief Information Officer J. 
Greg Hanson, and the newly appointed Assistant Sergeant at Arms for 
Operations, Esther Gordon. The many accomplishments set forth in this 
testimony would not have been possible without this team's leadership 
and commitment.
                     major events of the past year
    The Office of the Sergeant at Arms faced several challenges this 
past year; some were planned, some were not. In particular, in 2004 we 
faced the ricin attack in February, the Reagan funeral in June, the 
transition to the 109th Congress beginning with the November elections, 
and the recent Inauguration. I am pleased to report that the staff 
performed capably and enabled the Senate to function effectively 
throughout these events.
    Ricin Attack.--The discovery of ricin in the Dirksen Senate Office 
Building on February 2, 2004, tested the emergency planning we had 
undertaken over the past several years. In response to the attack, SAA 
staff coordinated our efforts with those of the United States Capitol 
Police, the Committee on Rules and Administration, the Office of the 
Secretary of the Senate, the Office of the Attending Physician, and 
numerous other agencies and organizations to support Senate operations 
while all three Senate Office Buildings were closed.
    The incident prompted significant revisions to our mail testing 
protocols and modifications to our mail processing facility. The SAA 
Post Office staff adapted to working within a controlled environment 
while wearing personal protective equipment. Over the past year, they 
have opened, tested, and delivered over 12,500,000 articles of United 
States Postal Service mail and over 68,500 packages. To accommodate 
time-sensitive items addressed to Senate offices while maintaining the 
Senate's safety, the Congressional Acceptance Site processed and 
delivered over 98,000 items within our community from 3,200 couriers.
    Reagan Funeral.--During the week beginning June 6, 2004, the United 
States Capitol was the site of the first State Funeral since 1973. On 
Wednesday, June 9, the remains of former President Ronald Wilson Reagan 
arrived on the West Front of the Capitol by a horse-drawn caisson in a 
formal military procession. I had the distinguished, yet somber, honor 
of greeting Mrs. Reagan upon her arrival at the Capitol for the State 
Funeral in the Rotunda.
    The SAA staff played a key role in the preparations for this 
national event and demonstrated tireless dedication to meeting the 
Senate community's needs. The Capitol Facilities staff cleaned and set 
up holding rooms, the Photography and Recording Studios captured the 
event for historical purposes, and others provided behind-the-scenes 
support. We also focused on protocol and security throughout the week. 
The Executive Office staff coordinated attendance at the service in the 
Capitol Rotunda with Senate offices, assisted the Senators and Officers 
who participated in the program, and were responsible for the official 
Senate delegation's attendance at the National Funeral Service that was 
held at the Washington National Cathedral. The SAA security team had a 
continuous presence in the Capitol Police Command Center, and helped 
the Capitol Police, U.S. Secret Service, and other federal agencies 
ensure that Washington, DC was safe. As a result, almost 105,000 
mourners were able to pay their respects to the former President while 
complying with the enhanced security measures added since the last 
State Funeral.
    Transition.--The SAA staff facilitated the transition to the new 
Congress by equipping, staffing, and running the Transition Office for 
newly elected Senators, and by moving and setting up equipment for 
temporary and permanent office suites. They installed equipment in the 
transition office space, and provided administrative and mail services, 
as well as Web sites, documents, and placement services to facilitate 
new Senators' entry to the Senate. The Office of Education and Training 
assisted with in-depth training for new Senators, and provided training 
to their Chiefs of Staff and to Administrative Managers.
    Inauguration.--SAA staff also provided guidance on protocol, 
created the Web site, recorded the video feeds, photographed the 
events, produced documents and posters, helped set up the Capitol, and 
developed and implemented the infrastructure, computers, telephones, 
and applications to support the Inauguration. In addition, as part of 
the Inaugural security team, which also included the Capitol Police, 
the Metropolitan Police Department, the U.S. Secret Service, and the 
Armed Forces, we put effective security measures into place that 
enabled people to participate in Inaugural events, but also ensured 
that the events were safe.
    These examples are representative of how the staff of the SAA 
serves the Senate. This dedication is often unnoticed, but I wanted to 
let you know that it happens, even when there is no emergency.
            continuing emphasis on security and preparedness
    The Senate was in a heightened security posture for much of the 
past year, starting with the increased threat levels of the 2003/2004 
winter holiday season. In addition, the ricin attack in February, 
President Reagan's funeral in June, the 2004 conventions, Senators' 
campaigns, and the Inauguration all increased the demand on the SAA's 
security team and the Capitol Police. These challenges reflect the new 
reality of our security environment; we cannot and have not become 
complacent in our approach to the security of the Senate. The Senate's 
layered security strategy provides a framework that we use to address 
security challenges. In implementing the strategy, we integrate good 
intelligence, threat-driven protective measures, response capabilities, 
comprehensive emergency plans, and an aggressive training and exercise 
program to create comprehensive, Senate-wide security and preparedness. 
I would like to highlight some of our security efforts for you.
The Senate Security Team
    The Senate's security team includes the SAA Offices of Security and 
Emergency Preparedness and of Police Operations, along with the U.S. 
Capitol Police, the Secretary of the Senate, the Architect of the 
Capitol, and other supporting agencies. Together, these groups provide 
the Senate with a security team that is strong and well coordinated. 
Senate Leadership, this Committee, and the Committee on Rules and 
Administration are also strong and supportive members of this team.
Prevent and Protect
    Threat Intelligence Sharing.--The Capitol Police exchange threat 
intelligence information with the law enforcement and intelligence 
communities. Along with the Capitol Police, SAA security experts 
evaluate threats against Senators and certain visitors to the Capitol 
area, and take appropriate measures to eliminate or mitigate those 
threats.
            Personal Safety
    Security for Senators Who Participate in Foreign Congressional 
Delegation (CODEL) Visits.--The Consolidated Appropriations Act, 2005 
authorized Capitol Police officers to travel outside the United States 
in a liaison capacity to coordinate security arrangements for Senators 
traveling individually or as part of a CODEL. SAA staff, the Capitol 
Police, and the Department of State are developing policies and 
procedures to implement this new authority.
    Security for Senators at Special Events.--With the Capitol Police, 
we have created a standard for assigning security resources to Senators 
when they attend special events, whether the events occur on the 
Capitol campus or out of town. Special events include public 
appearances by Members in and out of Washington, DC, off-site 
conferences and policy retreats that Members attend, and offsite 
Committee hearings. This initiative allows us to align our efforts with 
those of other law enforcement agencies and allocate resources to 
ensure Members' safety and security.
            Safety on the Capitol Campus
    Mail, Packages, and Freight.--All mail and packages coming into the 
Senate are tested, whether they come through the U.S. Postal Service or 
from other delivery services. Last year, with guidance from our science 
advisors and Senate Leadership, we improved our mail- and package-
testing and security procedures. With over a year of experience with 
the improved procedures, I can report to you that they are working.
    An outside contractor currently provides the Senate's testing and 
processing service for mail and packages coming into the Senate, but 
this year we will move this service in house and to a larger, less 
costly (per square foot) facility. We expect this change to save the 
Senate $250,000 annually.
    In addition to mail testing and security procedures, we support the 
efforts of the Capitol Police to screen vehicles and freight by using 
technology, K-9 units, and officers. The Capitol Police will implement 
new security measures when they construct and move into a new screening 
facility.
    Perimeter Security.--Significant progress has been made in our 
perimeter security over this past year as we neared completion of 
Capitol Square perimeter security measures and of the bollard line 
along Constitution Avenue next to the Senate Office Buildings. In the 
coming year, this work will continue on Capitol Square and around the 
remainder of the Senate perimeter.
    Vehicle Security.--The Capitol Police implemented vehicle-screening 
checkpoints around the Capitol grounds last summer to counter the 
threat of vehicle-borne explosives. In addition, Senate Leadership 
closed First Street NE between D Street NE and Constitution Avenue, 
based on the strong recommendation of the Capitol Police. Since then, 
the Capitol Police periodically have modified the vehicle-screening 
procedures in response to intelligence and threat information with the 
goal of preventing vehicular attacks.
    Other Initiatives.--The SAA is involved in a number of additional 
ongoing projects that improve security, emergency response, and law 
enforcement across the Capitol campus. We support the efforts of the 
Capitol Police to enhance the physical security of the Senate Chamber, 
improve their response to incidents reported in Senate buildings and on 
the Capitol grounds, revise access control procedures for personnel and 
vehicles, and activate a program of anti-terrorism measures.
            Beyond Capitol Hill
    State Office Security Enhancements.--Over two years ago, the SAA 
began a security enhancement program for Member state offices. Since 
the program started in late 2002, we have completed security 
assessments of over 450 state offices and security enhancements for 60 
offices. We are in the process of delivering enhancements to 150 more 
offices. This accounts for all existing state offices, and we implement 
procedures for assessing new offices as they open. We place the highest 
priority on offices located in commercial properties, but we also have 
strong relationships with the General Services Administration, the 
Federal Protective Service, and the U.S. Marshals Service to support 
offices in federal buildings.
Prepare
    Our emergency preparedness plans and programs encompass emergency 
procedures, office emergency planning, emergency equipment fielded 
throughout the Senate, education and training programs, regular drills, 
and exercises. Combined, these plans and programs provide the Senate 
with the guidelines, equipment, and confidence to react effectively in 
an emergency.
    Evacuation Procedures.--The Senate's security team devoted much of 
this past year to improving the Senate's emergency procedures, its 
emergency procedures training, and its ability to notify staff. One 
item of note is the implementation of evacuation procedures for 
mobility-impaired staff and visitors. We implemented these procedures 
during evacuation drills and worked with offices to provide equipment 
and personal training to all mobility-impaired staff members and their 
supporting buddy teams.
    Emergency Equipment.--Over the past few years, the SAA fielded 
emergency items, such as escape hoods and wireless annunciators, 
throughout the Senate. This year we provided every Senate Member and 
Committee Office with emergency supply kits that contain a variety of 
emergency items. Over 18,000 items of emergency equipment were 
distributed to Senate offices and throughout the Senate Office 
Buildings. Last fall, an inventory of the Senate's emergency equipment 
was conducted to account for all items and to ensure that they function 
properly. I am pleased to report that Senate Offices have kept their 
equipment current and accounted for; we believe this reflects the 
importance offices place on their emergency equipment.
    Planning Support.--To enhance support to Senate offices, we 
recently published a guide for office security planning, the Roadmap to 
Readiness. This document provides concise guidelines, tips, and 
templates, and it directs offices to resources that can help them in 
their security planning. We also established a presence for continuity 
of operations, security, and emergency preparedness on Webster, the 
Senate's intranet, and published a number of brochures on emergency 
equipment and procedures.
    We are working with a small number of state offices on training in 
emergency preparedness and on exercising continuity of operations plans 
to determine how best to support their needs. Our Web-based continuity 
of operations planning tool is available to state offices, and we are 
extending training resources and planning tools to help state office 
staff improve their security awareness and emergency plans.
Practice
    Training and Education.--In the past year, SAA staff conducted over 
300 security-related training sessions for Senate offices and staff. We 
delivered 53 training sessions, including general training courses on 
escape hoods and Office Emergency Coordinator training, and seminars on 
personal preparedness and the District of Columbia's evacuation plans. 
These courses and seminars are part of the regular Office of Education 
and Training curriculum. Over 250 additional training sessions to 
smaller groups on specialized security topics were also delivered. 
Additionally, we offer in-office training on sensitive or office-
specific topics and consulting to office staff on preparing emergency 
action plans and continuity of operations plans. These training and 
education efforts complement the training offered by the Office of the 
Attending Physician on First Aid and CPR and that offered by the 
Capitol Police on security awareness.
    Exercise Program.--Together with the Secretary of the Senate and 
other legislative branch agencies, we have established an aggressive 
plan to rehearse our emergency plans and procedures throughout the 
year. Our exercises range from quarterly evacuation drills and monthly 
communications tests to full-scale exercises of relocation sites 
involving transportation, special communications equipment, and staff. 
An aggressive exercise agenda for the coming year includes joint 
exercises with the House of Representatives.
    Our training and exercise program has enabled the Senate to respond 
effectively to emergencies twice in the past four years. The exercise 
program ensures that we continue to rehearse, evaluate, and improve our 
plans and procedures.
    The SAA's Office of Police Liaison and Office of Security and 
Emergency Preparedness focus on improving our security environment and 
the readiness of the Senate every day. With the support of Senate 
Leadership, this Committee, and the Committee on Rules and 
Administration, we continue to improve the Senate's security 
capabilities.
                         information technology
    The Office of the Sergeant at Arms places special emphasis on using 
technologies to deliver security, emergency preparedness, service, and 
support to the United States Senate. The SAA's CIO organization 
executes our strategic information technology plan to accomplish these 
goals.
    I want to take a minute to thank Assistant Sergeant at Arms and 
Chief Information Officer J. Greg Hanson for the vision and dedication 
with which, over the past two years, he has transformed our already 
fine Information Technology group into a group that offers best-in-
class service and support. Greg ensures that we consistently provide 
the Senate with state-of-the-art technology and service, and he has 
taken a personal interest in his customers. Because of this, Greg was 
named to this year's Federal 100, the one hundred top executives from 
government, industry, and academia who had the greatest impact on the 
government information systems community in 2004. Congratulations, 
Greg.
    Over the past year, our most significant accomplishments in the 
information technology area include:
  --Completion of a state-of-the-art alternate computing facility for 
        continuity of operations and continuity of government;
  --A 13 percent improvement in customer satisfaction, exceeding our 
        internal goal of 10 percent;
  --Implementation of a robust information security awareness program 
        that includes enterprise technology tools, enhanced 
        communication, and technical training;
  --Cost avoidance of at least $2 million by developing an information 
        technology strategic plan, a comprehensive technology level 
        matrix, and a state-of-the-art application for tracking 
        information technology projects and issues; and,
  --An enhanced ability to evaluate and deliver technology solutions to 
        the Senate through teamwork and collaboration with Member 
        Offices, Committees, and steering groups.
Information Technology--The Road Ahead
    Last year's testimony stated, ``Information technology is crucial 
to security in the Senate and to the Senate's ability to accomplish its 
day-to-day activities. With a strong emphasis on providing advanced 
technology capabilities and outstanding customer support to the Senate, 
the SAA is adopting a comprehensive approach to delivering technology 
solutions and services.'' This year we are delivering on these goals 
with a strategic information technology plan that aligns with the 
Senate's business requirements. The plan, titled An IT Vision for 
Security, Customer Service, and Teamwork at the United States Senate 
(or Senate IT Vision) is found in Appendix B of this testimony. The 
Senate IT Vision sets forth: Our strategic technology vision; our 
strategic technology mission; our core values and guiding principles; 
and, five broad information technology strategic goals for the next two 
years.
    The strategic information technology vision is to deliver state-of-
the-art information technology that directly supports efficient, 
effective, secure legislative action, communication, and constituent 
service through our infrastructure, processes, and talented workforce. 
This vision stresses the importance of collaboration and teamwork in 
delivering information technology services and solutions.
    The strategic mission, which supports the vision, is to leverage 
technology so the Senate can function efficiently and effectively to 
serve the American people under any circumstance. We are developing a 
technology team composed of staff members from my office, Member and 
Committee offices, and other Senate offices to work together to provide 
technology options, solutions, and world-class customer service so the 
Senate can accomplish its mission.
    The core values and guiding principles in the strategic plan define 
the CIO organization's culture and ensure that it aligns with the 
Senate's business priorities. The values and principles emphasize 
people, teamwork, leadership, and a relentless pursuit of 
organizational excellence so we can deliver information technology that 
meets the Senate's requirements quickly and effectively.
    The five strategic information technology goals and their 
supporting objectives drive all our information technology programmatic 
and budgetary decisions. The five strategic goals are:
  --1. Secure. A secure Senate information infrastructure.
  --2. Customer Service Focused. A customer-service culture top-to-
        bottom.
  --3. Effective. Information technology solutions driven by business 
        requirements.
  --4. Accessible, Flexible & Reliable. Access to mission-critical 
        information anywhere, anytime, under any circumstance.
  --5. Modern. A state-of-the-art information infrastructure built on 
        modern, proven technologies.
    The five objectives encompass broad-based security, customer 
service, and emerging technology initiatives. The objectives complement 
the vision and mission, which directly tie all information technology 
activities to the business of the Senate. Our accomplishments this past 
year reflect the notable progress we have already made in achieving the 
five objectives.
Security and Continuity Communications
    Alternate Sites.--This year, the SAA technology staff completed the 
information infrastructure that will enable us to replicate all the 
systems housed at the Senate's Washington, DC primary computing 
facility to the alternate computing facility (ACF). Together with the 
Architect of the Capitol, we upgraded the physical infrastructure of 
the ACF by adding a fully redundant backup power system and increasing 
the ACF's primary power capacity. We have also completed and tested all 
mission-critical information systems, and they can be live within a 
matter of hours. During the upcoming year, we will add a satellite-
communications ground station to the ACF, and we plan to offer expanded 
replication and backup capabilities if the Architect of the Capitol 
purchases the facility.
    We will expand the storage area network this year to accommodate 
increased traffic from the enterprise Active Directory and Messaging 
Architecture (ADMA) systems and from new replication options that we 
are offering to Senate Committee and Leadership Offices. We completed 
fiber connectivity to the primary alternate chamber site, systems to 
support the Sergeant at Arms and Secretary of the Senate Emergency 
Operations Centers and Briefing Centers, and the extension of the 
communications infrastructure to backup locations.
    Contingency Communications.--A comprehensive array of 
communications systems and options enable us to communicate under any 
circumstance. This year, we tested new communications technology for 
connectivity between the Senate's primary computing facility and a 
Briefing Center at another location. In addition, both of the state-of-
the-art communications vehicles mentioned in last year's testimony have 
passed initial acceptance testing and have moved into the final 
acceptance testing phases.
    This year, we will complete the in-building wireless 
infrastructure, which will improve signal strength for the major 
cellular telephone and BlackBerry service carriers. With this 
infrastructure, the Senate will have coverage in areas where it was 
previously poor or nonexistent and Senate staff can connect to their 
offices via wireless remote computing. The system will substantially 
pay for itself because the carriers are paying us for the right to use 
it.
    The technology and security groups collaborated during the past 
year to improve the Senate's overall security. The two groups created a 
specialized emergency communications unit with personnel from both 
offices who gather requirements and translate them into integrated, 
highly reliable systems. One result of this partnership is a system for 
Office Emergency Coordinators that we are now moving from prototype to 
production. In an emergency, the system provides the ability to account 
for Senate staff using wireless tablet computers.
    Securing Our Information Infrastructure.--This year, we witnessed 
new, more sophisticated methods of attack with more severe 
consequences. In response, we enhanced and strengthened our defense-in-
depth approach to network and computer security over the past year. We 
continue to see great success in the enterprise-wide anti-virus 
program, with almost 10,000 desktop anti-virus suites installed. We 
perform intrusion detection in house, and we have executed a contract 
to augment our capabilities. The contract helped us contain a 
particularly insidious Randex virus attack. Our information security 
group coordinates with other outside federal agencies to ensure we have 
the most up-to-date information and techniques for combating threats to 
our information infrastructure. These efforts are part of the defense-
in-depth strategy that protects the Senate's infrastructure and reaches 
from the software running on Senate desktops to the edge of our 
networks.
    In the first three months of 2005, nearly 4 million viral events 
have been detected, and nearly 99 percent of them were automatically 
blocked from infecting Senate machines. Our security processes are 
reducing the number of infections per computer per day. In spite of the 
fact that the threat environment is getting worse with more malevolent 
viruses and worms, it is rare that a Senate computer is infected.
    In addition, we introduced a software update services program to 
help offices protect themselves from virus and worm attacks. In 
participating offices, the program automatically installs patches on 
the offices' computers, once we have certified that the patches will 
not adversely affect Senate systems.
    Next year, we will build and begin operating a comprehensive 
security operations center that will monitor the security of Senate 
information systems and detect and combat viruses and other computer-
based attacks. We will continue to coordinate with Leadership 
Organizations, Committees, and groups such as the Joint Security Best 
Policies and Practices Working Group to develop security training, 
policy, and information security processes.
Customer Service
    The SAA continues to measure how well we meet the Senate's 
technology needs. Our second annual CIO Customer Satisfaction survey 
revealed a 13 percent overall improvement against a goal of 10 percent. 
In addition, we saw improvements in every category, with some 
categories up by as much as 26 percent. Our customer satisfaction 
action plan stresses strong communication and relationships, 
introducing modern technology faster, and providing offices options and 
choices of products, solutions, and services.
    Customer Service, Satisfaction, and Communications.--We maintain a 
comprehensive outreach and communication program with information 
technology newsletters, quarterly project status reviews, participation 
in the Majority Leader's Information Technology Working Group, and 
joint monthly project and policy meetings with the Committee on Rules 
and Administration, the Senate System Administrators Association, and 
the Administrative Managers' Working Group.
    In addition to conducting an annual comprehensive survey, we 
monitor our service every day. After service calls, we send customers 
satisfaction surveys. We track survey results and evaluate them for 
service-level-agreement trends. We discuss the results in weekly 
business process and technology review meetings that staff, support 
contractors, and customers all attend. This past year our help desk 
contractor consistently posted customer satisfaction results at or 
above 95 percent and the telecommunications support staff posted 
customer satisfaction results at 98 percent.
    Business Applications.--This past year, we renewed Senate contracts 
that provide research services and resources for Senate offices. We 
also replaced the old Senate News Wire with a state-of-the-art, real-
time, NewsWatch service; outfitted the financial management system 
supporting the Secretary of the Senate's Disbursing Office with a Web-
based interface; and completed new SAA Human Resources and Senate 
Employee Assistance Program Web sites.
    Later this year we will complete a prototype services portal that 
we are developing in conjunction with Senate Leadership and the 
Committee on Rules and Administration. The prototype will serve as a 
modern platform for launching many new Web-based applications Senate-
wide.
    In preparation for modernizing and expanding our constituent 
correspondence management systems, we started gathering formal 
requirements from offices last summer. We will complete the 
requirements analysis this year, and anticipate recompeting the 
correspondence management system contracts in fiscal year 2006.
    Enhanced Communications and Infrastructure.--Several information 
technology projects enhance communications within and between Senate 
offices. An improved network infrastructure features 100 Mbps of 
connectivity for desktop and 1 Gbps connectivity between servers. The 
enterprise fax program replaces stand-alone fax machines with an 
integrated, server-based fax system that eliminates paper.
    Increased frame relay bandwidth to the state offices supports video 
teleconferencing and data replication. The Senate video 
teleconferencing program, with nearly 300 installed endpoints Senate-
wide, allows staffs in Washington, DC offices to conduct video 
conferences with state offices and other remote locations.
    The Senate Telecommunications Modernization Program is a 
comprehensive, multi-year project to replace the Senate telephone 
system with a state-of-the-art telecommunications system that will take 
advantage of the convergence of voice, data, and video traffic on a 
single network. The convergence will provide new services, reduce the 
cost of existing services, and eliminate single-points-of-failure in 
the telephone system. We expect to start implementation in fiscal year 
2006.
    We also anticipate completion of the enterprise tape backup system 
this fiscal year. The system runs over our storage area network, and it 
already automatically backs up over fifty servers located in our 
primary computing facility.
    In addition, the Senate is now the employer of all Capitol Exchange 
Operators. The staff of the Capitol Exchange serves both the Senate and 
the House of Representatives, but as of March 1, 2005, they are all 
employees of the Senate. This change will increase efficiency and 
establish a unified team with common management, benefits, policies, 
and practices.
Modern Technology Aligned With Business Processes
    Process Management & Innovation.--This year, we established a 
Process Management & Innovation organization that aligns our 
information technology, strategies, and solutions with Senate business 
processes. This staff is responsible for technology infusion and for 
tracking relevant emerging technologies against the Senate's 
information technology requirements. Part of this effort is the Senate 
Emerging Technology Conference and Exhibition Program that shows new 
technologies and concepts to Senate staff. The two conferences held 
last year featured knowledge management, communications, and 
information technology best practices. The first-ever emerging 
technologies exposition displayed new, inexpensive products for 
consideration by Senate offices. We held the latest Senate Emerging 
Technology Conference and Exposition on April 14, 2005, and it featured 
new information security technologies and products.
    Modern Information Technology Processes and Performance Metrics.--
In order to deliver new technologies quickly and efficiently, we 
created system development processes tailored to the Senate's needs. 
These processes form the foundation of a state-of-the-art project and 
issue management tracking system called the Dashboard. The Dashboard is 
a Web-based tool that we use to monitor and maintain the status of all 
information technology projects. The tool is useful for both management 
and communications. Next year, we will give our customers access to 
parts of the Dashboard so they can track projects and issues. The next 
phase of the Dashboard, which we will implement later this year, will 
track performance of key infrastructure components and mission-critical 
systems. Completion of the next phase will enable us to track all 
information technology initiatives.
                          operational support
    The commitment to exceptional customer service is a hallmark of the 
Sergeant at Arms organization and the cornerstone of our operational 
support. The groups that make up our Operations team continue to 
provide exceptional customer service and support to the Senate 
community.
Capitol Facilities
    Capitol Facilities staff works around the clock to ensure that the 
furniture and furnishings are of the highest quality, cabinetry and 
framing are outstanding, and the environment within the Capitol is 
clean and professional. This past year, we improved our customer 
service by implementing three major initiatives:
  --Performance Management Process.--We implemented a performance 
        management process that helps Capitol Facilities management and 
        staff improve their job performance each year. Using this 
        process, we have been able to improve communication within 
        Capitol Facilities and increase the quality of service we 
        deliver to our customers.
  --Work Order System.--We implemented a Work Order System that tracks 
        requests and automatically sends them to supervisors for 
        immediate scheduling and completion. The system enables 
        Facilities staff to respond to requests promptly, and provides 
        management better information on the resources required to 
        fulfill requests.
  --Computer-Aided Design.--In our Furniture and Furnishings shop, we 
        invested in a Computer-Aided Design, or CAD system. The system 
        serves as a database of construction drawings of historical 
        furniture. This information enables us to reduce the amount of 
        time needed to create custom-built furniture for Capitol 
        offices.
    We undertook these three initiatives because we will soon have a 
significantly larger area to maintain, and we need a more efficient way 
to manage the workload of the Capitol Facilities staff. Specifically, 
the opening of the Capitol Visitor Center will add 66,500 square feet 
of Senate space to the responsibilities of the Capitol Facilities 
group: 41,000 square feet of office space, 8,000 square feet of meeting 
space, and 17,500 square feet of other space. Compared to their current 
obligations, the Environmental Services Division will clean and 
maintain almost one-third more office space and three times more 
meeting space, and the Furnishings Division will need to furnish over 
50 percent more office and meeting space.
Employee Assistance Program
    Over the past year we have enhanced and expanded our Employee 
Assistance Program. The program supports staff across the Senate. It 
improves supervisors' ability to manage troubled employees, enhance the 
work environment, and improve employee job performance. It helps 
employees find the resources they need to address some of the personal 
challenges they face every day. It also coordinates with Security staff 
to train people on reacting to emergencies and to ensure that processes 
are in place to deal with emergencies.
Photo Studio
    We completed the Photo Studio's transition to an entirely digital 
operation. With the new photo browser database, Senate staff can use 
their desktop computers to place orders, download high-resolution 
images, e-mail images, and track the progress of their orders online. 
Staff members from more than 110 Senate offices use the new system, 
which can make digital images available within hours, when necessary. 
This system has improved our service to our customers and increased 
their satisfaction.
Printing, Graphics, and Direct Mail
    During the past five years in Printing, Graphics, and Direct Mail, 
our capital investments and process improvements have enabled us to 
increase production by over 54 percent with 12 percent fewer staff. 
During fiscal year 2004, we provided guidance to Members' staffs on 
addressing outgoing mail in a format that took full advantage of 
postage discounts. As a result, offices saved over $2.2 million in 
postage expenses.
    We also implemented a Web-based system that archives and manages 
documents for Senate offices. The system enables Senate staff members 
to search, view, and print documents from their desktops. In its first 
eight months of operation, we used the system to scan nearly one 
million documents for offices.
    Finally, we are moving forward on a new warehouse facility. SAA 
staff identified a site and they are working with the Architect's 
office to create an effective space for the Senate. The building's 
shell is complete, and we are planning the interior. The lease was 
approved and signed, and we expect the build-out to be completed by 
September of this year. The new facility will provide considerable 
security and operating benefits to the Senate.
Recording Studio
    The Recording Studio records the activity on the Senate floor and 
Committee hearings, and it provides a production studio and rental 
equipment. Last year, it recorded all 1,034 hours and 31 minutes of 
Senate Floor proceedings, and 593 Committee hearings.
    Committee Hearing Room Upgrade.--In 2003, we started a project to 
upgrade and install multimedia equipment in Committee hearing rooms. 
The project included digital signal processing, audio systems, and 
broadcast-quality robotic camera systems.
    To date, we have implemented audio upgrades in three hearing rooms, 
SR-332, SR-301, and SD-106. Three more are scheduled for this calendar 
year. The enhancements include improved speech intelligibility and 
software-based systems that we can configure based on individual 
Committee needs. The system's backup will take over within minutes if 
the main electronics fail, and because the system is networked, staff 
can automatically route audio from one hearing room to other hearing 
rooms to accommodate overflow crowds.
    The project also includes system diagnostic monitoring and 
redundancy that enable Recording Studio staff to detect and resolve 
problems. For example, if a Member is speaking at a relatively low 
volume, the system can automatically raise the volume of that 
microphone; if a Member forgets to turn on a microphone before 
speaking, the Committee clerk can turn it on remotely.
    The project's video upgrades add broadcast-quality television 
cameras on robotic systems to Committee Rooms, and cabinetry to conceal 
the cameras when they are not in use. The cameras can be remotely 
controlled from the Recording Studio. Once this project is completed, 
the Recording Studio will be able to broadcast more Committee hearings 
while simultaneously maintaining production capabilities in the 
television studios.
    Chamber Proceedings and News Programming Browsing System.--For 
years, the Senate has had the ability to search Chamber proceedings by 
text and listen to audio playback from desktop computers; in fact, we 
were a pioneer in this area, and accomplished it in the early years of 
computer browsers. As a major advance, we will replace our audio and 
text browsing systems with a state-of-the-art audio/text/video browsing 
system that will enable Senate staff to search and play back Chamber 
proceedings and news programming from any computer on the Senate LAN.
    This browsing system is the result of a modernization of our 
technical plan for the Senate Recording Studio that incorporates 
technology so new that it is operational in only a handful of 
facilities in the country. This new technology will enable the 
Recording Studio to record, edit, and play proceedings and programming 
without ever using tape machines. It will make the information 
available for simultaneous online searching and streaming.
Education and Training
    The Office of Education and Training provides employee training and 
development opportunities for all Senate staff in Washington, DC and in 
the states. The Technical Training group provides technical training 
support for approved software packages through instructor-led classes, 
one-on-one coaching sessions, specialized vendor-provided training, 
computer-based training, and informal training and support services. 
The Professional Training group delivers courses on management and 
leadership development, human resources issues and staff benefits, 
legislative and staff information, and new staff and intern 
information. The Health Promotion group offers seminars, classes, and 
screening on health-related and wellness issues, and it coordinates one 
annual Health Fair for all Senate employees and four annual blood 
drives.
    This year, we will be undertaking an outside assessment of our 
training program to ensure we are meeting the needs of the Senate 
community.
    Training Classes.--The Education and Training group offered 581 
classes in 2004, with 5,252 Senate employees taking advantage of these 
classes and the registration desk handling 20,467 requests for training 
and documentation.
    Of the above total, the technical training group offered 265 
classes to 1,093 staff members, and provided coaching on various 
software packages and other computer-related subjects to 702 staff 
members. The professional development area offered 316 classes to 4,159 
students, and delivered 40 special training and team building sessions 
to Members and Committees. The professional development group addresses 
team performance, communication, and conflict resolution, and we 
encourage managers and supervisors to request customized training for 
their offices. During the last quarter of the year, staff from the 
professional development group offered training via video 
teleconferencing to two state offices; we plan to continue this 
practice. In the Health promotion area, 1,310 staff members 
participated in the Annual Health Fair held in September, and 708 
participated in Health Promotion activities throughout the year, 
including cancer screening, bone density screening, and seminars on 
health-related topics.
    Together, the Office of Education and Training and the Office of 
Security and Emergency Preparedness provide security training for 
Senate staff. They delivered 53 sessions of Escape Hood and other 
security related training to 1,683 Senate staff in 2004.
    State Training.--Most of the classes we offer are practical only 
for Washington, DC-based staff, but we are expanding our offerings to 
state office staff through the State Training Fair, which began in 
March 2000. In 2004, we offered two sessions of this program to state 
staff, and conducted our annual State Directors Forum for the second 
year. The ``Virtual Classroom,'' an internet-based training library of 
over 300 courses, also enables state office staff to take advantage of 
the Senate's training resources; 396 staff members from state offices 
and Washington, DC have taken advantage of this training option.
                               conclusion
    The SAA staff provides consistent service, and their dedication is 
evident in the number of years people stay with the organization. Last 
year, we had 5 people celebrate 30 years with the SAA, 10 people 
celebrate 25 years, and 23 people celebrate 20 years. These are 
talented people who have devoted their skills to the Senate.
    The Office of the Sergeant at Arms is like dozens of small 
businesses, each with its own primary mission, each with its own 
measures of success, and each with its own culture. It has a fleet of 
vehicles that serves Senate leadership, delivers goods, and provides 
emergency transportation. Our photo studio records historic events, 
takes official Senate portraits, provides the whole range of Capitol 
photography services, and delivered thousands of pictures last year 
alone. The SAA's printing shop provides layout and design, graphics 
development, and production of everything from newsletters to floor 
charts; last year, it printed 13,067,071 sheets of color printing (a 
300 percent increase over the 2003 volume), and it produced 8,521 floor 
charts. The Office of the Sergeant at Arms also operates a page 
dormitory, a hair salon, and parking lots. It provides many other 
services to support the Senate community, including framing, flag 
packaging and mailing, and intranet services. Each of these businesses 
requires personnel with different skills and different abilities. One 
thing that they all have in common, though, is their commitment to 
making the Senate work smoothly.
    Over the past year, the staff of the SAA has kept the Senate safe, 
secure, and operating efficiently. This Committee and the Committee on 
Rules and Administration have provided active, ongoing support to help 
us achieve our goals. We thank you for your support and for the 
opportunity to present this testimony and answer questions.
           attachment i.--financial plan for fiscal year 2006
          office of the sergeant at arms--united states senate

                                                EXECUTIVE SUMMARY
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal Year 2006 vs. Fiscal Year 2005
                                                                ------------------------------------------------
                                                                   Fiscal      Fiscal                   Percent
                                                                  Year 2005   Year 2006     Amount     Increase/
                                                                   Budget      Request                 Decrease
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................................     $50,635     $57,743      $7,108         14.0
    Expenses...................................................     $55,725     $67,423     $11,698         21.0
                                                                ------------------------------------------------
      Total General Operations & Maintenance...................    $106,360    $125,166     $18,806         17.7
                                                                ================================================
Mandated Allowances & Allotments...............................     $53,714     $56,452      $2,738          5.1
Capital Investment.............................................     $13,453     $34,399     $20,946        155.7
Nondiscretionary Items.........................................      $4,290      $3,951       ($339)        -7.9
                                                                ------------------------------------------------
      TOTAL....................................................    $177,817    $219,968     $42,151         23.7
                                                                ================================================
Staffing.......................................................         875         893          18          2.1
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a fiscal year 2006 
budget request of $219,968,000, an increase of $42,151,000 or 23.7 
percent compared to fiscal year 2005. The salary budget request is 
$57,743,000, an increase of $7,108,000 or 14.0 percent, and the expense 
budget request is $162,225,000, an increase of $35,043,000 or 27.6 
percent. The staffing request is 893, an increase of 18 FTEs.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The general operations and maintenance salaries budget request is 
$57,743,000, an increase of $7,108,000 or 14.0 percent compared to 
fiscal year 2005. The salary budget increase is due to the addition of 
18 FTEs, a 3.9 percent COLA, and merit funding. The additional staff 
will augment our security team, improve operations, expand services, 
and meet new requirements for the Senate community.
    The general operations and maintenance expenses budget request for 
existing and new services is $67,423,000, an increase of $11,698,000 or 
21.0 percent compared to fiscal year 2005. Major factors contributing 
to the expense budget increase are emergency preparedness in security 
operations and planning, $4,572,000; price adjustments and annual 
escalations in the IT support contract, $3,281,000; increased cost of 
expanded intrusion detection monitoring services and software, 
$1,075,000; contract renewal expenses of Senate Information Services 
(SIS) contracts, $303,000; and upgrade of data center equipment in 
Postal Square, $177,000.
    The mandated allowances and allotments budget request is 
$56,452,000, an increase of $2,738,000 or 5.1 percent compared to 
fiscal year 2005. This variance is primarily due to an increase in 
state office security enhancements of $3,600,000, offset by decreases 
in telecommunications and state office lease costs.
    The capital investment budget request is $34,399,000, an increase 
of $20,946,000 or 155.7 percent compared to fiscal year 2005. The 
fiscal year 2006 budget request includes funds for equipment purchases 
and implementation of the replacement of the telephone system, 
$20,950,000; the multimedia equipment for the CVC, $3,700,000; 
replacement of printing production equipment, $2,712,000; CVC Senate 
Expansion Space furniture and equipment, $2,500,000; data network 
engineering, $1,346,000; CMS redesign, $1,000,000; and the Network 
Upgrade project, $971,000.
    The nondiscretionary items budget request is $3,951,000, a decrease 
of $339,000 or 7.9 percent compared to fiscal year 2005. The request 
funds three projects that support the Secretary of the Senate: contract 
maintenance for the Financial Management Information System (FMIS), 
$2,996,000; maintenance and necessary enhancements to the Legislative 
Information System (LIS), $865,000; and maintenance and enhancements to 
the Senate Payroll System, $90,000.
     attachment ii.--fiscal year 2006 budget request by department
    The following is a summary of the SAA fiscal year 2006 budget 
request on an organizational basis.

                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal Year 2006 vs. Fiscal Year 2005
                                                                 -----------------------------------------------
                                                                    Fiscal      Fiscal                  Percent
                                                                   Year 2005   Year 2006    Amount     Increase/
                                                                    Budget      Request                Decrease
----------------------------------------------------------------------------------------------------------------
Capitol Division................................................     $18,636     $31,898     $13,262        71.2
Operations......................................................     $56,269     $56,507        $238         0.4
Technology Development..........................................     $37,137     $41,370      $4,233        11.4
IT Support Services.............................................     $55,343     $77,507     $22,164        40.0
Staff Offices...................................................     $10,432     $12,686      $2,254        21.6
                                                                 -----------------------------------------------
      TOTAL.....................................................    $177,817    $219,968     $42,151        23.7
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and discussed in detail on 
the next pages.

                                                CAPITOL DIVISION
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal Year 2006 vs. Fiscal Year 2005
                                                                 -----------------------------------------------
                                                                    Fiscal      Fiscal                  Percent
                                                                   Year 2005   Year 2006    Amount     Increase/
                                                                    Budget      Request                Decrease
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries....................................................     $12,816     $14,797      $1,981        15.5
    Expenses....................................................      $5,820      $9,801      $3,981        68.4
                                                                 -----------------------------------------------
      Total General Operations & Maintenance....................     $18,636     $24,598      $5,962        32.0
                                                                 ===============================================
Mandated Allowances & Allotments................................          $0      $3,600      $3,600       100.0
Capital Investment..............................................          $0      $3,700      $3,700       100.0
Nondiscretionary Items..........................................          $0          $0          $0  ..........
                                                                 -----------------------------------------------
      TOTAL.....................................................     $18,636     $31,898     $13,262        71.2
                                                                 ===============================================
Staffing........................................................         271         273           2         0.7
----------------------------------------------------------------------------------------------------------------
The Capitol Division consists of the Executive Office, the Office of Security and Emergency Preparedness, the
  U.S. Capitol Police Operations Liaison, Post Office, Recording Studio and Media Galleries.

    The general operations and maintenance salaries budget request is 
$14,797,000, an increase of $1,981,000 or 15.5 percent. The salary 
budget increase is due to the addition of two FTEs, COLA and merit 
increases and other adjustments. The Office of Security and Emergency 
Preparedness requires an additional emergency preparedness planner, and 
the Recording Studio will add a broadcast production assistant.
    The general operations and maintenance expenses budget request is 
$9,801,000, an increase of $3,981,000 or 68.4 percent, and will 
primarily will fund security consultants and services required by the 
Office of Security and Emergency Preparedness and the United States 
Capitol Police Liaison.
    The mandated allowances and allotments budget request for state 
office security initiatives is $3,600,000.
    The capital investment budget request is $3,700,000, for the 
Recording Studio purchase of multimedia equipment for the CVC.

                                                   OPERATIONS
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal Year 2006 vs. Fiscal Year 2005
                                                                ------------------------------------------------
                                                                   Fiscal      Fiscal                   Percent
                                                                  Year 2005   Year 2006     Amount     Increase/
                                                                   Budget      Request                 Decrease
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................................     $14,901     $16,897      $1,996         13.4
    Expenses...................................................      $5,717      $6,026        $309          5.4
                                                                ------------------------------------------------
      Total General Operations & Maintenance...................     $20,618     $22,923      $2,305         11.2
                                                                ================================================
Mandated Allowances & Allotments...............................     $28,251     $28,002       ($249)        -0.9
Capital Investment.............................................      $7,400      $5,582     ($1,818)       -24.6
Nondiscretionary Items.........................................          $0          $0          $0   ..........
                                                                ------------------------------------------------
      TOTAL....................................................     $56,269     $56,507        $238          0.4
                                                                ================================================
Staffing.......................................................         294         302           8          2.7
----------------------------------------------------------------------------------------------------------------
The Operations Division consists of the Central Operations Group (Director/Management, Parking & ID Office,
  Printing, Graphics and Direct Mail, Photo Studio, and Hair Care Services), Facilities, and the Office Support
  Services Group (Director, Customer Support, State Office Liaison, IT Request Processing and Administrative
  Services).

    The general operations and maintenance salaries budget request is 
$16,897,000, an increase of $1,996,000 or 13.4 percent. The salary 
budget increase is due to the addition of 8 FTEs. These increases will 
fund three Parking & ID Office FTEs: administrative support and two 
additional parking attendants due to the increased demands to address 
security and enforcement. Printing, Graphics & Direct Mail will add 
four FTEs: two archival technicians to prepare documents for scanning, 
one production data specialist to scan documents, and an Operations 
Manager for our primary printing facility. The Photo Studio expects to 
add one photographer.
    The general operations and maintenance expenses budget request is 
$6,026,000, an increase of $309,000 or 5.4 percent.
    The mandated allowances and allotments budget request is 
$28,002,000, a decrease of $249,000 or 0.9 percent. This decrease is 
due to projected decreases in commercial and federal office rents.
    The capital investment budget request is $5,582,000, a decrease of 
$1,818,000 or 24.6 percent. Funding is provided to replace printing and 
production equipment in $2,712,000 and furnish and equip the Senate 
Expansion Space, $2,500,000, as well as several smaller initiatives.

                                             TECHNOLOGY DEVELOPMENT
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal Year 2006 vs. Fiscal Year 2005
                                                                ------------------------------------------------
                                                                   Fiscal      Fiscal                   Percent
                                                                  Year 2005   Year 2006     Amount     Increase/
                                                                   Budget      Request                 Decrease
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................................     $10,470     $12,004      $1,534         14.7
    Expenses...................................................     $19,649     $22,948      $3,299         16.8
                                                                ------------------------------------------------
      Total General Operations & Maintenance...................     $30,119     $34,952      $4,833         16.0
                                                                ================================================
Mandated Allowances & Allotments...............................          $0          $0          $0   ..........
Capital Investment.............................................      $2,728      $2,467       ($261)        -9.6
Nondiscretionary Items.........................................      $4,290      $3,951       ($339)        -7.9
                                                                ------------------------------------------------
      TOTAL....................................................     $37,137     $41,370      $4,233         11.4
                                                                ================================================
Staffing.......................................................         127         134           7          5.5
----------------------------------------------------------------------------------------------------------------
The Technology Development Services includes the Technology Development Director, Network Engineering and
  Management, Enterprise IT Operations, Systems Development Services, Information Systems Security and Internet/
  Intranet Services.

    The general operations and maintenance salaries budget request is 
$12,004,000, an increase of $1,534,000 or 14.7 percent. The salary 
budget increase is due to the addition of seven FTEs, an expected COLA, 
and merit funding for fiscal year 2006. Technology Development Services 
requires seven FTEs to replace more costly contract personnel and to 
eliminate a growing backlog of development projects.
    The general operations and maintenance expense budget request is 
$22,948,000, an increase of $3,299,000 or 16.8 percent. Major factors 
contributing to this increase are increased costs of expanded intrusion 
detection services and software, $1,075,000; increased costs of 
applications supporting the Office of Security and Emergency 
Preparedness, $715,000; and enhancements to the Asset Management 
System, $700,000.
    The capital investment budget request is $2,467,000, a decrease of 
$261,000 or 9.6 percent. Major on-going projects include the Data 
Network Engineering, $1,346,000, and Network Upgrade Project, $971,000.
    The nondiscretionary items budget request is $3,951,000, a decrease 
of $339,000 or 7.9 percent. The request consists of three projects that 
support the Secretary of the Senate: contract maintenance for the 
Financial Management Information System (FMIS), maintenance and 
necessary enhancements to the Legislative Information System (LIS), and 
maintenance and enhancements to the Senate Payroll System.

                                               IT SUPPORT SERVICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal Year 2006 vs. Fiscal Year 2005
                                                                ------------------------------------------------
                                                                   Fiscal      Fiscal                   Percent
                                                                  Year 2005   Year 2006     Amount     Increase/
                                                                   Budget      Request                 Decrease
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................................      $5,198      $5,819        $621         11.9
    Expenses...................................................     $21,607     $24,663      $3,056         14.1
                                                                ------------------------------------------------
      Total General Operations & Maintenance...................     $26,805     $30,482      $3,677         13.7
                                                                ================================================
Mandated Allowances & Allotments...............................     $25,463     $24,850       ($613)        -2.4
Capital Investment.............................................      $3,075     $22,175     $19,100        621.1
Nondiscretionary Items.........................................  ..........  ..........  ...........  ..........
                                                                ------------------------------------------------
      TOTAL....................................................     $55,343     $77,507     $22,164         40.0
                                                                ================================================
Staffing.......................................................          89          89  ...........  ..........
----------------------------------------------------------------------------------------------------------------
The IT Support Services Department consists of the Director, Office Equipment Services, Telecom Services and
  Desktop/LAN Support branches.

    The general operations and maintenance salaries budget request is 
$5,819,000, an increase of $621,000 or 11.9 percent. The salary budget 
increase is due to an expected 3.9 percent COLA and merit funding for 
fiscal year 2006.
    The general operations and maintenance expenses budget request is 
$24,663,000, an increase of $3,056,000 or 14.1 percent. The most 
significant factors contributing to this increase are expanded services 
and annual escalations in the IT Support Contract.
    The mandated allowances and allotments budget request is 
$24,850,000, a decrease of $613,000 or 2.4 percent. Major factors 
contributing to this budget request are voice and data communications 
for Washington D.C. and state offices, $17,937,000; procurement and 
maintenance of Members' constituent mail systems, $4,255,000; 
procurement and maintenance of office equipment for Washington D.C. and 
state offices, $2,857,000; and Appropriations Analysis and Reporting 
System, $100,000.
    The capital investment budget request is $22,175,000, an increase 
of $19,064,000 or 315.0 percent consisting primarily of equipment 
purchases for the replacement of the Capitol Hill telephone system, 
$20,950,000. This major project will fund procurement, implementation 
and documentation, and support the replacement or upgrade of systems as 
identified in the Telecom Modernization study conducted in fiscal year 
2004 and fiscal year 2005.

                                                  STAFF OFFICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal Year 2006 vs. Fiscal Year 2005
                                                                 -----------------------------------------------
                                                                    Fiscal      Fiscal                  Percent
                                                                   Year 2005   Year 2006    Amount     Increase/
                                                                    Budget      Request                Decrease
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries....................................................      $7,250      $8,226        $976        13.5
    Expenses....................................................      $2,932      $3,985      $1,053        35.9
                                                                 -----------------------------------------------
      Total General Operations & Maintenance....................     $10,182     $12,211      $2,029        19.9
                                                                 ===============================================
Mandated Allowances & Allotments................................  ..........  ..........  ..........  ..........
Capital Investment..............................................        $250        $475        $225        90.0
Nondiscretionary Items..........................................  ..........  ..........  ..........       100.0
                                                                 -----------------------------------------------
      TOTAL.....................................................     $10,432     $12,686      $2,254        21.6
                                                                 ===============================================
Staffing........................................................          94          95           1         1.1
----------------------------------------------------------------------------------------------------------------
The Staff Offices Division consists of Education and Training, Financial Management, Human Resources, Employee
  Assistance Program, Process Management & Innovation, and Special Projects.

    The general operations and maintenance salaries budget request is 
$8,226,000, an increase of $976,000 or 13.5 percent. The salary budget 
increase is due to the addition of one FTE, an expected 3.9 percent 
COLA, and merit funding for fiscal year 2006. Financial Management in 
Staff Offices will add one FTE to operate and maintain the document 
management and archive system for the department.
    The general operations and maintenance expenses budget request is 
$3,985,000, an increase of $1,053,000 or 35.9 percent. This increase in 
funding results from Financial Management's funding for consultant 
expenses in support of developing, documenting and maintaining adequate 
procedures and controls, and PMI's professional services and 
consultants in order to support information technology prototypes and 
innovation research and development.
    The capital investment budget request is $475,000, an increase of 
$225,000 or 90.0 percent. This increase is due to two projects: the Web 
Infrastructure Expansion and Video Conferencing Enhancements.
 united states senate information technology strategic plan 2005-2007: 
an it vision for security, customer service and teamwork at the united 
                             states senate
united states senate sergeant at arms, office of the chief information 
                                officer
    A state-of-the-art United States Senate information technology 
organization that directly supports efficient, effective, secure 
legislative action, communication, and constituent service through its 
infrastructure, processes, and talented workforce
                              introduction
    Developing a strategic information technology plan for a 
decentralized organization such as the United States Senate poses 
interesting challenges. The Senate consists of one hundred Senators 
(Members), twenty-four committees, and fourteen officers, leadership 
and support organizations, each with unique needs. Yet, the Senate must 
function as a legislative body under any circumstances. Political 
aspects also provide a unique environment for developing systems, 
solutions, and infrastructure.
    Unique Challenges and Opportunities.--Membership changes and the 
decentralized nature of the Senate result in a great variety of 
requirements. Within the context of satisfying the Members' individual 
business needs and ensuring efficient, effective, and enduring 
operation of the institutional Senate, the challenges include:
  --Developing coherent requirements and managing customer 
        expectations;
  --Providing an information infrastructure for continuity of 
        operations (COOP) and continuity of government (COG);
  --Protecting the information infrastructure from internal and 
        external threats;
  --Providing an agile, customer-focused, information technology 
        organization that is aligned with Senate business requirements;
  --Realizing economies of scale associated with ``enterprise'' 
        solutions while respecting the unique posture of each office 
        and being responsible stewards of American taxpayers' dollars;
  --Keeping the Senate ``on top'' of the rapidly-evolving ``technology 
        curve'';
  --Dealing with issues of information and data privacy and 
        confidentiality; and
  --Effective strategic planning--gaining consensus from all the 
        stakeholders.
    Though the institution is decentralized there are common business 
requirements that drive high-level functional requirements.
    A Common Business Model.--Senate offices share basic business 
goals: (1) Efficient, effective conduct of legislative business, (2) 
Representing constituents' interests, and (3) Being accessible and 
responsive to constituents. The following functional requirements 
spring from the business goals:
  --A need to be informed--ability to track (in near-real-time) current 
        events that affect constituents, the United States, and the 
        world;
  --A secure environment--ability to perform their duties in any 
        circumstances;
  --Ability to communicate among themselves;
  --Ability to communicate externally with the public and other 
        government entities;
  --Ability to operate and communicate among offices and staffs 
        (Washington D.C. and state offices) efficiently and 
        effectively; and
  --Ability to collect, organize, analyze, and present information.
    This United States Senate Information Technology Strategic Plan 
outlines strategic goals to satisfy these functional requirements and 
address challenges presented by the environment. The Office of the 
Assistant Sergeant at Arms and Chief Information Officer (CIO) is 
committed to providing world-class services and solutions and we are 
committed to pursuing innovative solutions and providing our Senate 
customers with technology choices. We are committed to working with 
other groups to erase barriers between organizations and provide 
seamless support. Finally, we are committed to working as team members 
within the larger Senate community whose stakeholders include every 
Member and Officer of the Senate as represented by their administrative 
managers, chief clerks and system administrators, with guidance from 
the Rules Committee on policies and priorities, and the Appropriations 
Committee on funding.
                                 vision
    A state-of-the-art United States Senate information technology 
organization that directly supports efficient, effective, secure 
legislative action, communication, and constituent service through its 
infrastructure, processes, and talented workforce.
                                mission
    Leverage technology so the United States Senate can function 
efficiently and effectively under any circumstances to serve the 
American people. Develop a technology team consisting of SAA, Member/
Committee office staffs, and other Senate Officers' staffs to provide 
technology options, solutions, and world-class customer service 
enabling the United States Senate to accomplish its mission.
                              core values
    Personal attributes expected of every CIO employee:
    Integrity.--``Service Before Self.'' Each of us serves something 
far greater than ourselves. To our nation, we represent the Senate. We 
will faithfully execute the duties and responsibilities entrusted to us 
and we will maintain the highest ethical and professional standards.
    Customer Relationship Focus.--``Customer Care, Top-to-Bottom.'' 
Each of us, regardless of our job title or function in the CIO 
organization, is a customer care specialist first. To best serve our 
customers, when they call for help, we will: Own the problem; work the 
problem; and follow up to ensure their complete satisfaction.
    Organizational Excellence.--``Relentless Pursuit.'' In everything 
we do, we will relentlessly pursue excellence: Every task--respecting 
our customers; building our team--respecting one another; delivering 
solutions; and representing the Senate.
                           guiding principles
    People First.--We will take care of our people. We will strive to 
recruit, retain, and develop top talent. Mutual respect and teamwork 
will be the norm in a friendly workplace where everyone is valued as an 
individual.
    One Team.--We will develop solutions, introduce technologies, and 
attack problems leveraging the best talent from across our 
organization. We will work in concert with the larger Senate 
information technology community including every Member and Officer of 
the Senate as represented by their administrative managers, chief 
clerks and system administrators, with guidance from the Rules 
Committee and the Appropriations Committee.
    Accountable.--We will measure our performance and solicit feedback 
from our customers. We will analyze results, compile lessons learned, 
and incorporate industry and government best-practices to enhance 
performance. We will communicate progress to our customers, operate as 
transparently as possible, and routinely measure our effectiveness.
    Relationships with Customers.--We will know our customers through 
meaningful relationships. We will strive to know and act on their needs 
even before they call on us. We will develop these relationships by 
continual, varied communication and by building bridges to each of 
them.
    Right Tools for the Job.--We will never seek to apply technology 
for technology's sake. Systems we build, solutions we deliver, and 
vendors we select will be directly tied to the business needs of the 
Members, Committees, and Officers of the United States Senate.
    ``Always-On'' Senate.--We will provide technologies, solutions, and 
infrastructures that will enable continuous Senate operations wherever 
and whenever needed.
    Innovate.--We will introduce and apply new concepts and creative 
approaches to meet the challenges of the present and anticipate the 
needs of the future. We will support innovation, agility, and a culture 
of rapid prototyping to identify and deliver viable solutions quickly. 
Above all, we will always strive for improvement.
                          goals and objectives
Secure
    Strategic Goal 1: A secure Senate information infrastructure.--
Provide a secure information infrastructure that protects Members, 
Committees, and Officers' data, respects their privacy, enables 
continuous Senate operations, and supports continuity of operations 
(COOP) and continuity of government (COG). Identify and understand 
threats, assess vulnerabilities, identify failure points and 
bottlenecks and determine potential impacts and remedy them before they 
adversely impact operations. Work as a team with system administrators, 
information technology staffs, security staffs, and training 
organizations to increase vigilance and awareness and be proactive in 
thwarting threats to the Senate information infrastructure.
            Supporting Objectives:
    Objective 1.1: Vigilance, awareness, education--know our systems' 
vulnerabilities and potential threats and work to educate and inform 
Senate system administration and information technology staffs on how 
to avoid them.
    Objective 1.2: Emergency preparedness--be prepared to support any 
and all Senate continuity of operations plans (COOP) and continuity of 
government (COG) plans. Deploy an information infrastructure that is 
flexible and agile enough to respond to adverse events.
    Objective 1.3: Detect threats, defend (defense-in-depth), preempt 
when possible.
Customer Service Focused
    Strategic Goal 2: ``Customer Service Culture'' top-to-bottom.--
Everyone on the CIO team is focused on providing excellent service and 
achieving customer satisfaction in everything we do: introducing new 
technologies, providing support, developing systems, streamlining 
processes, and day-to-day interactions.
            Supporting Objectives:
    Objective 2.1: Develop and nurture an agile CIO team with the 
skills, capabilities, and drive to provide excellent customer service.
    Objective 2.2: Develop and execute a customer care process 
including communications processes, goals, an annual customer 
satisfaction survey, CIO staff training, and a customer satisfaction 
action plan.
    Objective 2.3: Implement systems and solutions focused on 
supporting Senate Members', Committees', and Officers' ability to serve 
their constituents.
Effective
    Strategic Goal 3: Information technology solutions driven by 
business requirement.--In addition to always striving to be more 
efficient (streamlining processes, more output per unit time) and 
continuously searching for ways to be more effective (discovering new 
ways to satisfy requirements, leveraging technology to enable Members, 
Committees, and Officers to expand or enhance their missions and 
capability), the CIO organization will establish information technology 
solutions to enable legislative processes: collaboration, 
communications, and information access.
            Supporting Objectives:
    Objective 3.1: Move business to the web.
    Objective 3.2: A prototyping culture throughout the CIO 
organization.
    Objective 3.3: Modern business processes driven by Senate business 
requirements.
Accessible, Flexible & Reliable
    Strategic Goal 4: Access to mission-critical information anywhere, 
anytime, under any circumstances.--Eliminate bottlenecks and potential 
failure points. Monitor, track, insure system performance and quality 
of service.
            Supporting Objectives:
    Objective 4.1: Reliable state-of-the-art, high-bandwidth wired 
infrastructure supporting Washington D.C. campus, alternate and 
relocation sites, and state offices.
    Objective 4.2: Develop, implement, and operate a comprehensive 
Senate wireless infrastructure.
    Objective 4.3: Telecommunications modernization--a new 
telecommunications infrastructure built on convergence technologies.
    Objective 4.4: All critical data and processing facilities 
replicated and backed up at alternate computing facilities.
    Objective 4.5: Secure remote access capabilities to allow Members, 
Committees, and Officers access to their information resources from any 
location through a variety of secure and reliable devices.
Modern
    Strategic Goal 5: A state-of-the-art information infrastructure 
built on modern, proven technologies.--Keep the Senate on top of the 
``technology curve'' by seeking, testing, and employing leading-edge 
technologies and solutions to help the Senate accomplish its mission. 
On-going investigation and evaluation of new and emerging technologies 
and innovation to provide Members, Committees, and Officers solution 
choices and flexibility within a framework based on Senate business 
requirements and industry best practices.
            Supporting Objectives:
    Objective 5.1: Tie capabilities and solutions to Senate business 
requirements. Through effective two-way communication with Member, 
Committee, and Officer Staffs, identify Senate business needs 
(requirements) that can be met better with technology.
    Objective 5.2: Capabilities, solutions, choices within standards 
coordinated with the Rules and Appropriations Committees.
    Objective 5.3: Architecture, technology roadmap with focus on 
emerging technologies.
    Objective 5.4: An effective new technology infusion process that 
gets modern solutions in the hands of our customers quickly.
                            cio organization
    The CIO is an Assistant Sergeant at Arms (ASAA) charged with 
providing technology vision and leadership for the United States 
Senate. The CIO organization, with approximately 250 full-time Senate 
employees and supplemented by about the same number of contractors 
builds, operates, and supports the Senate's information infrastructure. 
The CIO is also responsible for information security, technology 
infusion, and information technology and office equipment help desk 
functions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    CIO Organizational Structure.--The CIO organization consists of 
three departments--Process Management & Innovation, Technology 
Development Services, and Information Technology Support Services. 
Autonomous from the CIO organization, but critical to its success, are 
the Customer Support Analyst and Technical Training organizations. The 
customer support analysts (CSA) serve as the interface between the 
Sergeant at Arms (SAA) and the Senate (customer) community. CSAs 
translate office requirements to the CIO organization for 
implementation and they ``market'' the CIO organizations' products and 
solutions to the offices. Technical trainers support every CIO 
initiative with focused customer training. They also provide technical 
training and resources to enhance the skills and competencies of the 
CIO organization.
    CIO Functional Structure.--The CIO organization functions as three 
centers of excellence--Innovation, Integration, and Development and 
Support. Systems and solutions pass through a virtual pipeline of these 
functions taking them from concept/idea/proposal to fielded, fully-
supported, operational system. A key component is constant customer 
input and feedback at every stage of the pipeline.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This functional organization approximates the classic system 
development life cycle (SDLC) approach for fielding solutions. 
Technology exploration (rapid prototyping, rapid application 
development, product testing) and new technology infusion occur in the 
Innovation and Integration centers and system development, operation, 
and maintenance (full-scale development) occur in the Development/
Support Centers.
    Agility and Teamwork.--The CIO organization has immense and varied 
talents. To foster innovation and respond to our customers faster we 
will apply those talents and capabilities whenever, and wherever, 
needed. Simply put--the CIO organization will be flexible and agile and 
we will deploy cross-functional teams to address customer requirements. 
Our planning, technology infusion and testing processes, development 
approaches, and responses to unforeseen events will feature teams of 
individuals from some or all our departments working in concert with 
our customers. We will be visible and accessible to our customers. This 
plan features strategic goals and objectives to these ends.
                             implementation
    Aligned With Sergeant at Arms' Priorities.--This two-year, rolling 
United States Senate Information Technology Strategic Plan focuses on 
systems and solutions to directly support the SAA's priorities--
leveraging modern technology to: Ensure the Senate is as secure as 
possible and prepared for an emergency; and provide outstanding 
customer service and support.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Why a Two-Year Rolling Plan.--A prime objective is to field and 
operate a modern, state-of-the-art, information infrastructure. To keep 
pace with technology change and innovation, the plan will be reviewed 
and rewritten annually. Subordinate to this plan are the tactical plans 
and activities that accomplish the goals and objectives set forth here.
    Developing the Plan is a Team Effort.--No strategy for the United 
States Senate can be developed in a vacuum. The entire Senate 
technology team including the Rules Committee, Assistant Sergeants at 
Arms, Appropriations Committee, Secretary of the Senate, and office 
information technology staffs must be actively involved. The initial 
draft of the United States Senate Information Technology Strategic Plan 
will be prepared by the CIO organization in concert with the Rules 
Committee. The completed working draft will then be coordinated and 
validated with the other Assistant Sergeants at Arms and then with the 
office information technology staffs (Chiefs of Staff, Administrative 
Managers, System Administrators) and the Majority Leader's Information 
Technology Working Group. In keeping with a spirit of innovation, this 
activity will be accomplished on-line in a strategic planning 
collaboration area. The final plan will be approved by the Sergeant at 
Arms and will serve as the basis for budget construction and testimony 
before the Appropriations Committee.
    Relationship to Other Plans.--The United States Senate Information 
Technology Strategic Plan reflects the priorities, guidance, and 
directives of the Sergeant at Arms, the Rules Committee, and other 
Senate leadership entities. The strategic goals and objectives herein 
must directly reflect the priorities and business requirements of the 
United States Senate. Similarly, subordinate plans must reflect these 
strategic priorities. All tactical plans, budget requests, enterprise 
architectures, and technology roadmaps must be directly attributable to 
the strategies and objectives laid out here.
                         measuring performance
    The only way to know if we are satisfying our customers is to ask 
them. Accordingly, the CIO organization has a multi-level approach to 
evaluation. We constantly measure performance, assess effectiveness, 
and check to ensure our efforts are aligned with business needs and 
requirements of our customers. We also validate the Senate's technology 
base against industry and government best practices and standards. The 
most frequent and important opportunities to gauge perceptions occur in 
the countless daily service calls, requirements meetings, and casual 
conversations. We view each of these as an opportunity for constructive 
feedback and will aggressively solicit such feedback.
    We Will Fight for Feedback.--Service calls are followed by a 
customer satisfaction survey. These results are tracked and service 
level agreement (SLA) trends evaluated. We discuss results in weekly 
business process and technology review meetings attended by CIO staff, 
CIO support contractors, and customers. Performance against SLAs is one 
method to determine effectiveness of CIO contractors and staff. We also 
solicit customer feedback through an ongoing regular series of 
quarterly project review meetings and daily, weekly, and monthly system 
status reporting. Strategic goals, set forth in this plan, include 
leveraging technologies such as web-based performance reporting to make 
our operations transparent to our customers and provide them 
opportunities for feedback.
    We Will Continuously Self-Evaluate.-- . . . against industry and 
government benchmarks and best practices. We will continue to document 
the Senate's technology position, relative to the state-of-the-art, in 
the United States Senate Technology Level Matrix and validate it with 
leading industry consultants.
    The Annual Customer Satisfaction Survey.--The CIO organization was 
created in June 2003. One of the first actions of the CIO was to 
develop and administer a customer satisfaction survey to baseline the 
organization's performance for future evaluation. The first CIO Annual 
Customer Satisfaction Survey was administered by the CSA organization 
during the fall of 2003 and culminated in the development of a customer 
satisfaction action plan for 2004. The action plan featured the 
following initiatives:
  --Developing and projecting a culture of excellence;
  --One team
    --Everybody in the CIO organization puts customer service first
    --Everybody in the CIO organization accountable for customer 
            service
    --Cooperation and collaboration with the larger Senate information 
            technology community (Rules Committee, Appropriations 
            Committee, Member and Committee office staffs, Secretary of 
            the Senate)
    --Outreach--establishing enduring relationships (``building 
            bridges'');
  --Renewed focus on emerging technologies and innovation; and
  --Developing an agile CIO organization.
    The customer service action plan was executed and the 2004 survey 
completed in October 2004 with the results indicated in the chart 
below:
    Evaluation and Accountability.--Everyone in the organization, 
starting with the CIO, is first and foremost a customer service 
provider. The organization exists solely to deliver excellent products 
and services to the United States Senate to allow the Members to serve 
their customers--American citizens. Accordingly, every member of the 
CIO organization has a common customer service metric written into 
their performance objectives. The fact that there is a common 
organizational metric drives everyone toward the same goal and fosters 
teamwork. The common metric is decided annually by the CIO management 
team based on the results of the previous Annual Customer Satisfaction 
Survey and the desired improvements for the upcoming year.
    Working the Plan.--All of the evaluation tools described here will 
provide input and direction during the annual re-write of this plan. 
Through continuous program assessment and evaluation we will identify 
gaps formed by developing issues and changing circumstances. We will 
refine performance goals based on measures of effectiveness.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             communication
    Communication is the single most important aspect of our success. 
Effective communication forms the bedrock of all the central themes 
presented here--security, customer service, and teamwork. This 
strategic plan is the result of months of intense two-way communication 
with Senate stakeholders, industry leaders, and technology and business 
leaders in other federal government organizations.
    Through credible and effective communication across the Senate 
community, we will seek to understand and address important issues and 
evolving requirements to satisfy their information technology needs. 
With testimony, reports, briefings, newsletters, working groups, 
notices, and information sessions we will inform the Senate community 
of our progress in fulfilling their requirements.

    Senator Allard. My thought is we will go ahead and I will 
ask you some questions pertinent to your testimony, and we will 
follow this after each panel. After the panel has made its 
presentation, we will open it up for questions from the 
subcommittee.

                       TELEPHONE SYSTEMS UPGRADE

    You wrapped up your discussion on the telephone system, and 
I want to start off with some questions on the telephone 
system, because that is where your budget request is most 
costly.
    Mr. Pickle. Sure.
    Senator Allard. I understand we have had it for 20 years. 
There have been a lot of technological changes since then. But 
in view of a tight budget year like we could be facing this 
year, do you think that this is a project that could be 
deferred for another 2 years and still provide the same level 
of service that we are receiving right now?
    Mr. Pickle. I think you would continue to get the same 
service. It would not be state of the art. The longer we wait, 
the greater will be the cost to implement this new system. It 
is compounded by the fact that our contract with the carrier 
that we use expires in 2006.
    Now currently we have some leverage, because we have been 
involved in a very lengthy contract. We would like to leverage 
our position when we negotiate a new contract for services and 
equipment.
    I have talked to our CIO. We can perhaps do some of this 
incrementally, and we could put some of the costs off over the 
years. But we will suffer somewhat and we will fall behind 
technology.
    Senator Allard. Can this be phased in in a way that we 
gradually upgrade the system over time, so that we do not have 
the impact all in the 2006 budget?
    Mr. Pickle. Yes. I think the project will last more than 1 
year. And from that standpoint, the funding could be spread 
out. It just depends upon how we obligate the money and what 
the requirements are from the contractual arrangements we have 
with the vendors.

                      VOICE-OVER INTERNET PROTOCOL

    Senator Allard. I know that some businesses have looked at 
voice-over Internet protocol----
    Mr. Pickle. Yes.
    Senator Allard [continuing]. And are very pleased about the 
way it has operated in the business. Now these are small 
businesses.
    Mr. Pickle. That is true.
    Senator Allard. The report I am getting back, they are 
pleased with the system. But it is resisted by the telephone 
companies, and as a result of that, they have had directory 
problems with the telephone companies, and it put them in an 
adversarial relationship with the telephone company.
    Have you taken a look at this new technology? With what I 
see happening in small businesses, is that something that we 
should consider here, considering the huge cost savings, the 
potential that is there?
    Mr. Pickle. Yes.
    Senator Allard [continuing]. Does it need some more proving 
before we wade into that? Maybe if we wait 1 or 2 years it will 
begin to prove itself a little more.
    Mr. Pickle. Sure. We are looking at it. And we realize it 
is new. And it is going to be part of the architecture for our 
new telecommunications system. I do not know, the degree or the 
extent that it plays in our ability to integrate into our 
communication systems. I know there are some obvious 
advantages.
    Senator Allard. Yes.
    Mr. Pickle. We think it is going to be less expensive for 
us. It gives the Senate offices and the staff here a 
flexibility that they currently do not have. And what I mean by 
that is it takes away the need to contact the SAA folks in many 
cases to transfer calls and to transfer services.
    It has a lot of advantages. I think you are right. I do not 
think anyone knows what the final outcome will be, but we want 
to use this, or have this as an alternative. Certainly, 
initially, we want to take some very measured steps, and baby 
steps, if you will.
    Senator Allard. Well, I am pleased that you are looking at 
it, because that is the new technology out there.
    Mr. Pickle. Oh, it is.
    Senator Allard. And I think it has some potential for us. 
So I am pleased to hear that you have looked at that.

               STAFFING INCREASE FOR THE SERGEANT AT ARMS

    I want to talk a little bit about your staffing increase. 
You have requested 18 additional staff. Now your staffing has 
been increasing, I understand, rather steadily for the last 5 
years, 138 FTEs or 18 percent since around 9/11. Why do you 
need those increases?
    Mr. Pickle. The 18 positions, most of these positions are 
tied to security or technology. A couple of them are tied to 
replacing more costly contract employees that we have. Can we 
re-prioritize and revisit these? Absolutely, we can. Perhaps we 
can re-juggle some of what we are doing.
    But in regard to security and technology, those are pretty 
tough not to replace right now because our role, as you know, 
is going to expand considerably, not only with the alternate 
computing facility, which we have, but also the Capitol Visitor 
Center (CVC), when it comes on line. So those positions are in 
anticipation of supporting in great part, what is going to take 
place over the next year or so.

              CAPITOL VISITOR CENTER EQUIPMENT FURNISHING

    Senator Allard. Okay. Now on the CVC equipment furnishing, 
your budget includes $6.2 million for equipping the Capitol 
Visitor Center, and then providing the furnishings. Now given 
the continued schedule slippage with this project, and a 
probable opening date of fiscal year 2007, I know that they 
wanted to have the construction part by September of next year, 
which hopefully we can make that. But from a practical 
standpoint, it does not look to me like we are going to be in 
the building and operating until 2007. Is this something that 
can be deferred if that slippage continues?
    Mr. Pickle. I think if the slippage continues into the 
latter part of fiscal year 2007, we have some flexibility with 
the $3.7 million or $3.6 million for the Senate Recording 
Studio. There also may be some flexibility, if it goes that 
far, in regard to the furnishings and the equipment for 
facilities and environmental folks.
    I believe the measurement tool they use here is we need 9 
month's leeway. We have to have obligated the funds and start 
down the road 9 months before we open. And that is probably 
the----
    Senator Allard. Okay.
    Mr. Pickle. I know the date keeps slipping. So if we open 
in the summer of 2007, we would need the funds----
    Senator Allard. This year.
    Mr. Pickle. If we open in the summer or fall of 2007, we 
would need the funds in the very early part of the year.

   DISCUSSION ON ADDITIONAL FUNDING FOR CURRENT TECHNOLOGY ALTERNATE 
                           COMPUTING FACILITY

    Now the increase in the use of technology in the Senate has 
had a significant impact on your budget over the years. Do you 
expect this will level off or continue to trend upward in the 
future?
    Mr. Pickle. I think that technology is changing so quickly. 
And we can never----
    Senator Allard. It is.
    Mr. Pickle. It is difficult to stay current. We realize 
that. But we make the best investment we can, given the most 
proven technology out there.
    Our technology costs will continue to grow somewhat because 
of the alternate computing facility (ACF). As you know, that is 
a first-rate facility.
    There will be some increased expenditures in the future 
years there for a number of reasons. Also, the CVC will add 
some costs because you have the communications costs, with 
wiring and other installations that are required, and you have 
the support personnel who will be needed to support these two 
functions or these two sites. With the CVC adding about 38 
percent more square footage to the Senate space, the need to 
support that 38 percent more square footage is going to cause 
some additional increases on our part.

                        UPGRADING PRINTING PRESS

    Senator Allard. Okay. I want to go to your printing press. 
How old is your current press and what improvements will a new 
press bring with that?
    Mr. Pickle. The press that we are requesting to replace in 
this budget is 17 years old. It is an outdated press. It is one 
that only prints in two colors, and the Senate demands more 
than red and black or black and blue. So we will have a 
combination of four colors with the new one if we buy it.
    But more importantly, the current press, I understand it is 
a very labor-intensive process. And when you look at the number 
of copies that this particular press and office print, it is 
pretty phenomenal. In 2004, I believe the number was somewhere 
around 19 million color copies that this office printed. This 
was about a 166 percent increase from the prior year, and we 
anticipate a very large increase this year. The demand for 
color print is certainly going up. So it is a good investment.
    Senator Allard. A lot of technology has changed in 17 
years. I would think that you could find some printing systems 
out there where it would be less labor-intensive.
    Mr. Pickle. Absolutely. And I think this is one that we are 
looking at that would accomplish that.

             UPGRADING MAIL PROCESSING FACILITY AND PACKING

    Senator Allard. On your mail processing facility, you are 
looking for a new processing facility, I understand.
    Mr. Pickle. Yes.
    Senator Allard. And this would enable you to process your 
packages as well as your regular mail. According to your 
testimony, you anticipate that will save us about $250,000 
annually, is that correct?
    Mr. Pickle. I think it will. Yes.
    Senator Allard. And how will those savings be achieved?
    Mr. Pickle. Let me take a step back, if I can, for a 
second.
    Senator Allard. Sure.
    Mr. Pickle. Mail processing at the Senate postal facility 
where we open, screen, and examine mail, is done by Senate 
employees. And we estimate that we can do it for $3 million 
less than our counterparts in the House. This is because we use 
Senate employees, and it is just a better way to do business.
    We currently use a contractor to process the packages, as 
does the House. We have found that the quality of their 
service, while good, many times is not the best. There have 
been some pretty serious failures. We believe that by using 
current Senate employees, about two or three of whom we can 
shift over to the package processing function, we will save 
that huge contract price that we pay out to this vendor.
    Now we do a lot of outsourcing, as you know. And we are all 
for outsourcing. But this is one outsourcing, because of its 
nature both in cost and in security, where we can do better.
    Senator Allard. I am aware that in our ports of entries and 
our major shipping points, lots of times you use gamma and X 
radiation to determine what is in the package. And usually we 
are talking about large shipments that come in. Do we have 
anything like that that we are using here that would move 
things along quicker and maybe reduce labor retention?
    Mr. Pickle. Yes.
    Senator Allard. We do not want to get too much into 
technology where we would tip off people what we are doing.
    Mr. Pickle. Absolutely, sir.
    Senator Allard. My question is: Are we up to standard on 
that?
    Mr. Pickle. We are up to standard. And I would say in 
regards to both packaging and mail that we are state of the art 
in the Senate.

                         WAREHOUSE CONSTRUCTION

    Senator Allard. Okay. Thank you. Just to follow-up here on 
the warehouse, we had extra money in there in fiscal year 2004, 
I understand, and then also in 2005, which is this year. How is 
that coming along and what is the status on that now?
    Mr. Pickle. It is coming along well. We should complete the 
construction of the warehouse by the fall of this year. And we 
hope to be in there shortly thereafter. It is a good investment 
for the Senate.
    As you know, it replaces about five different warehouses, 
which are dispersed throughout this area. And this is a first-
rate, climate controlled warehouse, which is going to be a cost 
savings to us in the out-years.
    Senator Allard. Okay. All right. Let us go ahead and we 
will call this panel's discussion to a close and we will go 
into the next panel.
                          CAPITOL POLICE BOARD

STATEMENT OF HON. WILLIAM H. PICKLE, CHAIRMAN
ACCOMPANIED BY:
        TERRANCE W. GAINER, CHIEF OF POLICE, UNITED STATES CAPITOL 
            POLICE
        HON. W. WILSON LIVINGOOD, HOUSE SERGEANT AT ARMS
        ALAN HANTMAN, ARCHITECT OF THE CAPITOL

                  OPENING STATEMENT OF SENATOR ALLARD

    Senator Allard. And on the next panel we are going to have 
the Capitol Police Board. And so we will have Mr. Pickle, Mr. 
Hantman, Mr. Livingood, and Mr. Gainer. Who is going to give us 
the testimony on this particular panel? Mr. Pickle again?
    Mr. Pickle. I have just a few remarks and then the Chief is 
taking it, sir.
    Senator Allard. Okay. Very good. Proceed, Mr. Pickle.

                     STATEMENT OF WILLIAM H. PICKLE

    Mr. Pickle. Mr. Chairman, as you indicated, I am joined by 
the Capitol Police Board and Chief of Police, Terrance Gainer. 
The other Board members are Mr. Bill Livingood, the House 
Sergeant at Arms, to my left, and Mr. Alan Hantman, the 
Architect of the Capitol, to my right. And I know you know 
these gentlemen.
    Senator Allard. Yes.
    Mr. Pickle. We, the Board, are very pleased to be here with 
the Chief today and support him on his budget request. I think 
as you step back and look at what this department has 
accomplished, we all find it to be a very remarkable 
department. It is a department that, because of this 
subcommittee in particular, and I mean this subcommittee, it 
has grown and become one of the most professional and one of 
the best departments in this country.
    When you look where this department was 5 years ago, or 
even 4 years ago, and you look where it is today in terms of 
recruitment, retention, training, and the ability to do a very, 
very difficult job in a very complex period of time, they have 
done a great job.
    What makes their job so difficult here on the Hill is this 
department is unlike any other police department in the 
country. We demand that they provide security and protect the 
30,000 people who work here each day on the Hill. We demand 
that they protect the hundreds of thousands of visitors and 
tourists who come here daily; and at the same time, we demand 
that they keep this campus open so that the people's House can 
be enjoyed by all. Nowhere is there such a contradiction in 
this country, and they do such a great job.
    Now many people look at this department and say, ``My gosh, 
it is one of the largest departments in the country.'' Well, 
there is a reason for it. This is also the number one or number 
two target in this country for terrorists. And it is also one 
of the most visited spots in this country.
    We demand so much of them and they do so much for us. As 
you know, the anthrax and ricin attacks and more recently, when 
we were orange alert for the Nation last August, through the 
election, we worked this department 7 days a week, 24 hours a 
day. Many officers had no days off. It cost an awful lot of 
money. And we wish we could find a way to bridge the gap 
between too much and too little security here.

                           PREPARED STATEMENT

    But we have a great deal of confidence in this Chief. We 
support his budget request, and we hope that we can answer some 
of your questions today that will give you and the subcommittee 
confidence that we are spending your dollars wisely. Thank you.
    Senator Allard. Well, very good.
    [The statement follows:]

                Prepared Statement of William H. Pickle

    Mr. Chairman and members of the Committee, we are honored 
to appear before you to discuss the fiscal year 2006 budget 
request for the United States Capitol Police. With me today are 
the other members of the U.S. Capitol Police Board, Mr. Bill 
Livingood, House Sergeant at Arms, Mr. Alan Hantman, Architect 
of the Capitol, and Terrance Gainer, Chief of Police.
    We appreciate this opportunity to present and discuss the 
issues and challenges behind the Capitol Police fiscal year 
2006 budget request. I would like to share, by way of topical 
introduction, some of my observations regarding police overtime 
and staffing levels, and current campus security needs and 
concerns.
    But before I move on to this background information, I 
would like to thank the men and women of the Capitol Police for 
their leadership in coordinating the many organizations, people 
and resources necessary to effect a very successful 2005 
Presidential Inauguration. The Capitol Police, and I say this 
with a depth of gratitude, has a deep bench of seasoned 
Inaugural veterans, skillful crowd managers, and experienced 
officers degreed in patience and diplomacy, who gave this 
Nation a very successful and noteworthy Inauguration. Without 
exaggeration, it is fair to say, the world was watching and 
wondering, with some modicum of anxiety, if some attempted 
disruption might befall the United States' first Presidential 
Inauguration since the September 11 attack. The Capitol Police 
executed well their responsibilities and, without drawing 
attention from the event, allowed the Nation's most celebrated 
tradition of peaceful, democratic government to go off without 
a hitch. Congratulations to the Capitol Police for a job well 
done!
    I have a great respect and admiration for the men and women 
of the Capitol Police. As opportunity permits, I engage the 
officers in conversation and listen to their thoughts. I gladly 
report to you that they have an unmistakable dedication and 
love of country; they are devoted, proud, and dedicated to the 
business of protecting Congress. Many acknowledge it an honor 
to protect, serve, and welcome the Nation's citizenry, who come 
to participate in legislative business, witness the workings of 
democracy, and partake in the history that is this Nation's 
Capitol. These officers are enthusiastic owners of their 
responsibilities, even with the weight of a challenging work 
environment requiring rotating schedules, long hours, and a 
steeled endurance to brave the elements.
    As Chief Gainer's testimony outlines, the Capitol Police 
have assumed, and will continue to be asked to shoulder, 
additional responsibilities. Overtime will continue to be 
needed to meet general campus security and protection 
responsibilities, including the 1st Street NE closure and 
random vehicle inspections, and will be further impacted by the 
CVC opening. And, while the dedicated members of the Capitol 
Police have responded in the past by working overtime when 
needed, we need to ensure we do not overextend these officers.
    Additionally, long duty tours can reduce officer training 
opportunities. Abbreviated training creates a position, where 
officer skills atrophy, endangering the lives of the officers, 
congressional community, and visitors. Hiring sufficient 
numbers of officers, commensurate with the responsibilities 
charged to the Capitol Police, will help us retain a robust, 
healthful, vigorous, and well-trained police force, and avoid 
the risks of atrophied skills.
    The security levels of the Capitol campus are necessary; 
they must be sustained; we must remain vigilant; and we cannot 
let our guard down. Managing the unexpected by preparing and 
guarding against vehicle improvised explosives and suicide 
bombers is a valid mission. There is enough concern to warrant 
our high level of vigilance, and we should not take luxury with 
human life by waiting and reacting to an event. CIA Director, 
Porter J. Goss in February told the Senate Select Committee on 
Intelligence, ``It may be only a matter of time before al Qaeda 
or another group attempts to use chemical, biological, 
radiological and nuclear weapons.'' In the same session, FBI 
Director, Robert S. Mueller III raised concerns about ``al 
Qaeda sleeper cells'' and ``directed efforts this year to 
infiltrate covert operatives into the United States'' as well 
as a ``clear intention to obtain and ultimately use some form 
of chemical, biological, radiological and nuclear or high-
energy explosives material in its attacks against America.''
    The choice we have today is whether Congress is better 
served with officers stretched thin using overtime or by hiring 
additional officers to meet security, protection, vigilance, 
and deterrence levels needed to keep the campus from harm. I 
must strongly recommend, and the Capitol Police Board supports, 
the hiring of additional officers. We have a duty to protect 
human life on this campus, and we have a moral and ethical 
responsibility, in light of current threat levels, to maintain 
a high posture of security.
    The Capitol Police Board has reviewed the fiscal year 2006 
budget and we ask your support for full funding, which will 
provide for the maintenance and operation of all the 
improvements and capabilities funded in recent years. The 
Capitol Police force has been transformed in recent years. It 
is stronger, more responsive, capable, accountable, and 
reliable and better able to serve Congress. We ask your support 
to sustain these improvements throughout the next year and help 
ensure that we do not ask our officers to work unreasonable 
overtime or be denied leave or training opportunities.
    Chief Gainer will address more specific operations and 
plans for the coming fiscal year. I thank you for your time and 
your consideration and am happy to answer any questions.

    Senator Allard. Go ahead, Mr. Gainer.

                 STATEMENT OF CHIEF TERRANCE W. GAINER

    Chief Gainer. Thank you, Mr. Chairman, and members of the 
subcommittee. We appreciate the support that you have given the 
United States Capitol Police. Really, on behalf of all the 
members of this department I would like to acknowledge that 
support.
    We do understand our responsibilities and we do understand 
the limited dollars available. I would like to submit my 
written testimony for the record and just share a few thoughts 
with you now before we answer any questions.
    Senator Allard. We will put in the record the full 
testimony from both you and Mr. Pickle.
    Chief Gainer. Thank you, sir. Mr. Pickle mentioned a couple 
of things we have done. I would just like to put into context 
what has happened in the past 12 months since we sat before 
this subcommittee.
    We did have the ricin attack and we handled it quite 
nicely, and opened the buildings very quickly after that. We 
handled the Reagan state funeral and screened 100,000 visitors 
in 24 hours. We instantly set up a system to inventory people's 
property as they came in, because they were not permitted to 
bring it in the Capitol. This was done on the spur of the 
moment by a group of very dedicated civilian and sworn 
officers.
    We have supported the State of the Union address. We lent 
our support to the two political conventions, where we had 
significant personnel up there, as well as the 2005 
Inauguration. And as Mr. Pickle said, we stood at code orange 
alert through August, September, October, November, and 
December. And over the past year we have screened some 9.5 
million people, a 30 percent increase over what we did the year 
before.
    Since January, for instance, we have now gone to our Tiger 
Teams, and unlike what we were doing earlier in the summer, 
where we were out there every single day at every single 
intersection--14 intersections. We now hit a couple of 
different intersections or places.
    We have screened some 233,000 vehicles; 7,000 of those, 
interestingly enough, are vehicles that we thought needed 
further investigation. We conducted further investigation of 
those 7,000 vehicles resulting in 224 vehicles being denied 
access and 224 vehicles that potentially could have brought 
some harm to us.
    Our officers have conducted 2,700 bomb searches. We have 
called out our HAZMAT Material Response Team some 300 times. We 
have conducted 3,000 special events and dignitary visits. We 
presented to the U.S. attorney 600 cases for their prosecution, 
with nearly a 98 percent approval rating by the U.S. attorney's 
office.
    And this is what we know: we know that terror attacks have 
tripled across the globe, as it is reported this morning. We 
know that terrorists are patient and Americans are not. We know 
terrorists use surveillance techniques. We know that terrorists 
plan ahead and come back to places they have not gotten before.
    We are very, very well aware of what goes on in the area of 
improvised explosive devices, vehicle-borne improvised 
explosive devices and combinations of attacks, and we have 
tried to position our forces to prevent these attacks. And as 
Mr. Pickle indicated, at the same time, we have a very open 
campus for these approximately 9.5 million people.
    The thing that we do not know, and this has been testified 
to numerous times up on the Hill by the head of all the Federal 
agencies, and the CIA, FBI, Homeland Security, is where or when 
an attack might occur, or if, in fact, there are terrorist 
cells in the United States.

                           PREPARED STATEMENT

    We have a mission. We understand our mission. We have a 
vision. We understand our vision. And we have a strategy to get 
there. I would be very happy to try to answer any of your 
questions, sir.
    Senator Allard. Well, thank you very much.
    [The statement follows:]
                Prepared Statement of Terrance W. Gainer
    Mr. Chairman, thank you for the opportunity to appear before the 
Appropriations Committee today.
    I would like to first put some context into our budget request, 
which we recognize is a substantial increase over last year's budget. 
The fight against terrorism led by the United States and its coalition 
partners continues. We know through intelligence reports that 
terrorists have stated their intent to strike another blow on America, 
and we also know that the Capitol and all it stands for is clearly one 
of their targets. We must not let that fact slip from our minds as we 
continue further--albeit safely--away from September 11, 2001. As the 
foremost symbol of democracy, the Congress, its Members, employees, 
visitors, as well as public buildings and operations are a highly 
visible target for individuals and organizations intent on causing harm 
to the United States and disrupting the legislative operations of our 
government. Law enforcement genuinely believes it really is not a 
question of if--rather a question of when we could expect a strike. We 
are the first line of defense and we take our jobs seriously as we put 
our lives on the line each day that we come to work.
    The United States Capitol Police request a fiscal year 2006 
appropriation of $290.1 million, which is $59.7 million greater than 
the fiscal year 2005 appropriation. The Salaries portion of the request 
is $230.2 million to support 2,125 employees including 1,714 police 
officers (122 new officers) and 411 civilian positions supporting 
security, emergency response, technical, professional, and 
administrative functions. The total salaries increase is $28.4 million 
and is a result of three areas: mandatory increases of $15.9 million 
for cost-of-living allowances, health benefits, within-grades, 
promotions, and other benefits, an additional overtime requirement of 
$8.5 million for operational responsibilities, and new salaries of $4 
million to support 122 new police officers.
    The General Expense portion of the request is $59.9 million, which 
is a $31.3 million increase. This increase is explained in three 
spending areas: replacement of the legislative branch escape hoods for 
$8.2 million, hiring and outfitting costs for 122 new officers at $1.9 
million, and finally $20.7 million to support and maintain previously 
provided and implemented equipment, assets, systems, infrastructure, 
more than half of the $20 million slated for physical security and our 
information and communication systems, which cannot be absorbed at 
current funding levels.
    We expect this request with its increase will no doubt invite 
serious discussion, and we are prepared to address any of your 
questions and concerns. While I spoke earlier of the post-9/11 era, it 
is important to step back and take into account the last nearly seven 
years of change. This organization's considerable transformation began 
with the fatal shooting of our two officers in 1998. In response to 
that shooting we received funding to hire more officers, improve 
infrastructure, and implement security technologies. The 9/11 Terrorist 
and Anthrax attacks of 2001 again highlighted the need to further 
``harden the target'' or in other words reduce the campus exposure to 
threats through prevention, detection, vigilance, and deterrence. 
Because of these events and the support of the Appropriations 
Committees, we received funding to improve and add new capabilities to 
the organization. These previously acquired capabilities are detailed 
in our budget request, and it will cost $20.7 million in additional 
funding over current baseline funding to sustain their use, 
effectiveness, performance and reliability. The demands on our 
equipment and technology capabilities will continue for the foreseeable 
future.
    The Ricin Incident, the War in Iraq, six Department of Homeland 
Security code orange alerts, and the constant intelligence assessments 
have given us additional concern and have prompted operational 
adjustments. The top to bottom change of the Capitol Police, set in 
motion in 1998 and accelerated by attacks, events, intelligence, and 
world events, has resulted in a dramatic change in the Department and 
its support. Many of these changes have just recently come to fruition. 
In the same vein, the associated operations and maintenance costs are 
now impacting our General Expense request. The maintenance of these 
systems is the principal driver to the increase in our request--not new 
programs. Our request is to maintain the structure that we have set 
into place, and not to step backwards at the expense of congressional 
community safety or interruption of government. The changes and the 
design of the changes to the Capitol Police were created to sustain 
Congress, within the purview of the mission of the Capitol Police, and 
the result is an extraordinary law enforcement organization, unlike 
other police organizations. In fact, I would like to take just a moment 
to mention some of our accomplishments in the past fiscal year when the 
Department was challenged and successfully conducted several National 
Special Security Events such as the Inauguration; the Democratic and 
Republican conventions, the Ricin incident, the State of the Union and 
the Reagan State Funeral in which the Department screened more than 
100,000 visitors within a 24-hour period.
    In 2004, the USCP greeted and screened more than 9.5 million staff 
and visitors throughout the Capitol Complex as compared to 7 million in 
2003. Our officers screened more than 61,000 visitors to major 
Congressional Concert events; conducted more than 2,700 bomb searches; 
responded to more than 300 hazardous material calls; coordinated more 
than 3,000 Special Events and Dignitary visits; processed nearly 1,000 
illegal demonstrators and violators within our jurisdiction and 
presented nearly 600 cases to the U.S. Attorney's Office. We hired 145 
sworn officers and 154 civilians in our Department in fiscal year 2004. 
Additionally, the Department has implemented a health program as we 
work towards creating and nurturing a fit workforce. The Department 
also has provided educational benefits that work toward providing an 
educated team. One hundred and seven employees are participating in our 
Student Loan Repayment Program.
    The specific needs of Congress, current threat assessments, and 
professional leadership has combined to create a hybrid police agency, 
integrating capabilities for law enforcement, security technologies, 
dignitary protection, intelligence analysis and threat assessment 
specific to the Capitol, crowd management, hazardous materials and 
device response, and physical security barriers, building access 
screening, prevention of vehicles bearing improvised explosive devices 
and the detection and prevention of covert surveillance. These Capitol 
Police capabilities work together to protect 535 Members of Congress, 
congressional leaders, congressional staff of more than 20,000, and the 
historical and political symbols of the Capitol campus.
    The direction that the changes have taken has been influenced by 
best practice matching for law enforcement, professionalization and 
modernization of our administrative and technical support functions. 
This is where we have transitioned from sworn administrative roles to 
professional officer roles by hiring civilian professionals for 
information systems, human resources and financial management and other 
administrative functions. We have also moved to a self-sufficient role 
in the legislative branch no more solely reliable on the House and 
Senate for infrastructure and support. The Department assumed 
responsibilities for all human resource functions requiring systems and 
people to assume these responsibilities. This included building a new 
time and attendance system and hiring professional human resource and 
support staff. The Capitol Police assumed responsibility for a major 
component of information system functions, which were previously 
supported by the Senate Sergeant at Arms. As the personnel growth of 
the Department and the responsibilities of the Department increased it 
became evident that we needed to control, adjust, and build the 
enterprise architecture to meet the specific needs of the Department.
    These changes are significant and are the result of strategic 
leadership choices, events befallen the Capitol campus, congressional 
demands for improvement, rigorous GAO reviews, self-analysis, strategic 
planning, best practice matching, and current threat environments 
through numerous surveys, reviews, audits, and investigations. Through 
these external and internal analyses, we have rebuilt this organization 
into a more qualified, capable, responsible, responsive, agile, 
effective, and efficient organization to serve the legislative branch.
    The entire Capitol campus has undergone an infusion of 
technological improvements, enhancements and new implementations of 
state-of-the-art security to deter, detect, and delay unlawful acts 
using a risk-analysis to determine appropriate application. These 
technologies, workforce multipliers, allow us to monitor the campus, 
and control access to facilities with greater efficiency and 
effectiveness. Other technologies provide greater safety and assurance 
for the Capitol campus through the use of improved x-ray machines, 
magnetometers, itemizer sampling, technologies to scan all incoming 
material shipments in an off-site location, as well as cameras and 
recording systems, monitors, sensors, panic button alarms in Member 
offices, intrusion alarm systems, emergency notification systems, 
emergency call boxes, and measures to detect covert listening devices. 
Responsibilities for security systems and law enforcement have also 
grown with additional building spaces created by the Capitol Visitor 
Center construction, the Alternate Computer Facility, the Botanic 
Garden, and the Fairchild building.
    In the area of command, control and intelligence capabilities we 
have expanded our command center and instituted an Incident Command 
System which is a universally adopted command structure used by first 
responders. The Office of Plans, Operations and Homeland Security is 
now operational. Intelligence gathering, analysis and dissemination has 
been expanded and we have worked diligently to build relationships with 
other federal, state and local entities to improve response 
coordination and capabilities.
    Operational and response capabilities have increased by developing 
a dedicated full time specialized hazardous substance response team to 
develop and manage response capabilities dealing with chemical or 
biological events. Canine capabilities primarily used for bomb 
detection have been increased.
    The Capitol Police is shouldering additional workforce 
responsibilities for the new CVC facility, street closures, various 
technical security implementations, and the truck interdiction program. 
These responsibilities fall upon our officers as additional duty hours; 
and so, we propose an additional 122 new officers, which is a part of 
the total 254 officers required to normalize work schedules. Hiring 
these new officers will allow officers to work 48-hour weeks as opposed 
to much higher levels.
    Despite advances in technology and installation of systems, this 
Department is successful because of its people. Our greatest asset and 
investment is our current professional staff of 1,592 police officers 
and 411 civilian employees responsible for Capitol complex security, 
law enforcement, emergency response, safety, and professional support 
services, which are a 24/7/365 day a year responsibility. To maintain 
the Capitol Police high state of readiness, response, agility, alert 
and vigor, we request these new officers. A request of $1.9 million is 
necessary to recruit, test, hire, and outfit 122 new police officers. 
Given the existing and future staffing requirements, the leadership of 
the Department must continually balance mission needs with training 
needs, leave requests and overtime.
    While the well being of our officers is crucial to good operations, 
we are also recommending for the protection of the congressional 
community and visitors that we replace the aging escape hoods, due to 
expire in 2006. The Capitol Police manage this legislative branch 
program and the life-cycle replacement costs are estimated at $8.2 
million. However, as I indicated earlier the largest portion of our 
requested increase will go toward the operation and maintenance of 
equipment and systems that were installed in recent years.
    As Chief of the Capitol Police, I take great pride in the many 
years of service this Department has provided to the Congress. Building 
on that legacy, we at the USCP look forward to continuing to safeguard 
the Congress, staff, and visitors to the Capitol complex during these 
challenging times. And we look forward to working with the Congress and 
particularly this Committee.
    I thank you for the opportunity to appear here today and am ready 
to address any questions you may have.

    Senator Allard. We have now been joined by Senator Durbin 
and I will ask him if he has any comments that he would like to 
make.
    We are into the second panel, Senator Durbin.

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. No, Mr. Chairman. I apologize. I was in the 
Rules Committee with the markup and could not come earlier. But 
I ask that my opening statement be made part of the record, and 
I will ask a few questions as the hearing progresses.
    Senator Allard. Without objection, we will make your full 
statement a part of the record.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Mr. Chairman, thank you for scheduling today's fiscal year 
2006 budget oversight hearing on the Senate Sergeant at Arms 
and the U.S. Capitol Police Board.
    First of all, I want to thank our witnesses, Mr. Pickle, 
Mr. Livingood, and Chief Gainer for joining us today to review 
your fiscal year 2006 budget requests.
    Mr. Pickle, welcome. I commend you on the job your office 
is doing in providing security resources and technology to the 
Senate Community. Your staff does an excellent job in a 
difficult and challenging environment and we appreciate it. I 
had the opportunity of working pretty closely with your staff 
earlier this year when I moved into the Assistant Democratic 
Leader's office in the Capitol. Skip Rouse of your staff 
coordinated the move and everyone involved did an absolutely 
superb job. My staff and I are extremely grateful.
    You are here today to testify on behalf of the Office of 
the Sergeant of Arms and Doorkeeper of the Senate, the Capitol 
Police Board, and the Capitol Guide Board. It sounds like you 
have been pretty busy.
    The Senate Sergeant at Arms' budget request for fiscal year 
2006 is $219.9 million or an increase of 23.7 percent over the 
fiscal year 2005 enacted level. As you know, this year promises 
to be a tough year budget-wise, so I hope you will help us out 
by prioritizing your request.
    I noticed you have requested $21 million for a new 
telephone system. I hope you will provide us with some details 
about this new system.
    You have also requested funding for several items, such as 
furniture and equipment for the Capitol Visitor Center. The 
Architect of the Capitol, who testified before this 
subcommittee two weeks ago, predicted a September, 2006, 
opening for the CVC. I'd like to know if your fiscal year 2006 
request is based on this timeframe.
    I hope you will address the current status of the perimeter 
security upgrades. I'm interested to know if this project is on 
schedule and on budget.
    I hope you will update us on the status of the state office 
security upgrades.
    I'd also like to know the current status of the Mail 
Processing Facility. I understand you will soon be moving into 
a new, larger facility.
    You have requested 18 new FTE's in your fiscal year 2006 
request. I hope you will tell us what these new employees will 
be doing.
    Finally, I have noticed an increasing number of staff-led 
tours in the Capitol. I understand that during peak season, 
around 6,000 visitors are taken on staff-led tours each day. I 
am curious if the staff-led tours will be reduced or eliminated 
after the Capitol Visitor Center opens.
    Chief Gainer, it is good to see you again. I want to thank 
the men and women of the Capitol Police who put their lives on 
the line every day for us here in the Capitol. This has been a 
busy year for the Capitol Police and I congratulate you and 
your staff on a job well done.
    I see that your fiscal year 2006 budget request is $290 
million, an increase of 26 percent over fiscal year 2005. I 
hope you can prioritize some of the items in your request for 
the subcommittee.
    I note that you are requesting $23 million in the 
Architect's budget this year to construct an off-site delivery 
facility. I hope you will update us on the need for this 
facility and where you plan on locating it.
    You are requesting funding to replace the emergency escape 
hoods in the fiscal year 2006 budget, as you did in fiscal year 
2005. I hope you will update us on the need for these 
replacement hoods.
    In your testimony, you stated that the Department needs a 
total of 254 new officers to normalize work schedules. I hope 
you can tell us why you need so many additional officers at 
this time. I'd also like to hear about how much overtime your 
officers are currently working.
    I notice that you are requesting 62 FTE's for the Capitol 
Visitor Center. As I said to Mr. Pickle, I'd like to know if 
this request is assumes a September, 2006, opening of the CVC.
    Finally, I'd like to know how the merger between the 
Capitol Police and the Library of Congress Police is going 
since the Memorandum of Understanding was signed.
    Thank you Mr. Chairman.

                      ADDITIONAL STAFFING REQUEST

    Senator Allard. And there is no doubt that the Capitol 
Police have been under some unusual situations since 9/11, and 
last year was an unusual year in that time period. And I know 
you had a lot of challenges with the many things that you 
mentioned in your testimony. It was truly unique.
    Now, what is so unique about this next year that has you 
requesting a total of 254 additional officers?
    Chief Gainer. Well, our 2006 budget is actually requesting 
122 officers, and there are some other officers that are part 
of the supplemental----
    Senator Allard. Oh, okay. So it is an additional 254, with 
the supplemental.
    Chief Gainer. The request in the regular budget plus 
supplemental comes up to that, that is correct, Senator.
    Senator Allard. Okay.
    Chief Gainer. Yes.
    And in general, 122 are needed because of the expanded 
mission of the police. So, for instance, with the Capitol 
Visitor Center scheduled to open in 2006, we need to get the 
officers into the pipeline that will augment the security that 
goes there.
    Now that Capitol Visitor Center I think needs some 142 
officers. Some of those will be offset by taking officers who 
are now involved in the construction projects or screening 
elsewhere and put them in there, but ultimately we will need 62 
more people to man the various portals in the CVC.
    We have expanded our dignitary protection and the level of 
protection that we give to the leadership of both the House and 
Senate. And we would need 26 extra personnel there.
    The Senate leadership has directed and the Board approved 
the closure of First Street between Constitution Avenue and D 
Street, and that requires an additional 24 people. Now we have 
been doing that since early August, but we have been doing that 
out of hide and overtime.
    Also, we are still in the midst of the support of the 
Library of Congress. So 10 of those individuals in our 122 
would be dedicated to the attrition we anticipate there. But I 
am also aware that the Library of Congress in their own budget 
has come in and asked for some of their own people. So I think 
we are kind of caught, and the decision has not been made about 
whether our departments are going to merge and who is going to 
get the personnel to fulfill those needs. But that is where the 
122 come from.
    Senator Allard. Okay. Your request then will cover all the 
posts around the Capitol, plus what would be planned for the 
new Capitol Visitor Center, is that correct?
    Chief Gainer. If we receive the full supplemental number of 
132, and these 122, we would be able to cover our posts with 80 
percent of the sworn officers department working on average 8 
hours overtime per week.
    So this request lets us do a couple of things. If we had 
these 254--I will mix both of them.
    Senator Allard. Yes.
    Chief Gainer. If we have the 254, plus 80 percent of the 
department working nearly 16 hours overtime a pay period, that 
would permit the officers an opportunity to take their 
vacations that they have earned; it would let the officers have 
80 hours of training per year, which is really the gold 
standard and what we have been trying to shoot for, and just 
not wear the officers out. That is under the current threat 
environment.

                     SWORN OFFICERS TRAINING NEEDS

    Senator Allard. Okay. How much time do officers now have 
for meeting their individual training needs?
    Chief Gainer. Well, we have provided your staff with some 
of that information. Right now it is getting closer to the 80 
hours. It is somewhere in between the 70 and 80 hours. With the 
lieutenants and above, they are running up an awful lot of 
compensatory time. We are now getting the officers into a 
position where they can take their vacation time and time off. 
But I can say we have done that right now because we have cut 
back in a lot of areas. There are a lot of posts now that we 
would prefer under best practices to cover that we are not 
covering.

                  STAFFING THE CAPITOL VISITOR CENTER

    Senator Allard. Now I bring up the same point that we did 
at a previous panel on the completion date of the visitor 
center. It looks like it will be finally into 2007 before we 
actually have occupancy of that. Are you assuming that we are 
going to be moved in in September 2006?
    Chief Gainer. We did not think we would all be in there in 
September, but we knew that some of the process would begin in 
getting the officers selected, trained, and mentored, and ready 
to take their position; this process takes some time. So 
whether that can slide a month, or two, or three in fiscal year 
2006, it would probably be an ideal situation to have the money 
for the hiring, so that we would not delay the hiring as long 
in order to have the proper amount of officers at their 
portals.

                          FUNDING REQUIREMENTS

    Senator Allard. Now if we are not able to provide your full 
increase or funds in the supplemental, what requirements would 
not be met at all, and what requirements would you only be able 
to partially meet?
    Chief Gainer. Well, there is a whole series of those, 
Senator, and we will be happy to submit our prioritization 
listing.
    Senator Allard. If you could, get that to us.
    [Clerk's Note.--A detailed prioritization listing has been 
provided to the subcommittee.]
    Chief Gainer. But again, we have tightened our belts like 
good military and uniform people do, but we always increase the 
risk if we do not give this full coverage.
    Senator Allard. We understand.
    Chief Gainer. Thank you.
    Senator Allard. Senator Durbin, do you have a question?
    Senator Durbin. Thank you.
    Chief Gainer, thanks for the work that you and your men and 
women do for the Capitol Police, and thank you for the fine 
service. We at least take this opportunity once every year to 
remind all of us who work here and visit here how important 
your job is and how our safety depends on you. And I thank you 
for the fine men and women that you are commanding.
    At this moment, as I understand it, the 1,714 officers, or 
police officers, would include the 122 new officers, is that 
correct?
    Chief Gainer. It would, sir.

                         DISCUSSION OF OVERTIME

    Senator Durbin. It would. And let me ask you this: You 
mentioned earlier that you anticipate that each of the Capitol 
policemen will incur in any given pay period 16 hours' 
overtime?
    Chief Gainer. Eighty percent of the department.
    Senator Durbin. Eighty percent. Explain that to me, if you 
will. If I knew as a manager that I had to have that much 
overtime built into the regular payroll, it would suggest I 
need more employees.
    Chief Gainer. That is correct. In fact, as we did calculate 
this as to how many more employees we would need in order to 
bring the overtime down, and it is a business decision. And at 
first blush, sometimes it seems easier to hire someone in low 
overtime or pay more overtime and have fewer FTEs.
    As I recall, I think the number to bring the overtime down 
closer to zero--441 officers would be that number. The down 
side of even asking for that number, I mean the obvious cost of 
that is your inability to handle peaks and valleys. I mean it 
is still our dream that one day we will not be in as bad a 
situation as we are, and perhaps we will be able to scale back 
some of the security issues in 3, 4, 5, 6, 7 years from now.
    So I think if we grow by this combined total of 254, given 
the current threat environment, the department will be in a 
position to handle its needs. And I also want to suggest that 
we use that target number of 16 hours overtime per pay period 
because it is very consistent in the Federal law enforcement 
environment. Whether it is the Secret Service, or the FBI, or 
ATF, they as a rule are given a fixed amount of money that 
really equates to them working about 14 or 15 hours extra a pay 
period.
    Senator Durbin. What is the difference in pay between 
regular time and overtime?
    Chief Gainer. I would have to get back to you on that, sir.
    Senator Durbin. Is it time-and-a-half? Is it a 50 percent--
--
    Chief Gainer. It is time-and-a-half.
    Senator Durbin. So if I understand this correctly, 80 
percent of your officers will be, in effect, be paid for 20 
percent of their time in overtime, 20 percent, if I did that 
calculation----
    Chief Gainer. Yes, sir.
    Senator Durbin [continuing]. In my head correctly.
    Chief Gainer. Yes, sir.
    Senator Durbin. And we are paying, through your 
appropriation, a premium, this 50 percent add-on, for these 
extra hours, is that correct?
    Chief Gainer. Yes, sir.
    Senator Durbin. Okay. So let me ask you first: What is the 
reaction of your officers to this overtime? Is this something 
they look forward to, that gives them a little extra money, and 
they bank it and are willing to make the sacrifice?
    I know at one point here when they were working 12-hour 
shifts day after day after day, I really felt for them, because 
I thought that the money just was not worth it to some of them, 
but they knew they had to do it. So what impact does that 
overtime have on morale?
    Chief Gainer. Excellent point. And given the amount of 
hours that they work, way beyond 16 a pay period, is indicative 
of the regard with which they hold their job. But we were 
burning them up.
    In my conversations with the union and the officers, we 
think this is within a ballpark of what they can handle. And 
yes, the officers do look forward to having the option of 
working overtime When we actually started scaling back after 
December, there was an interesting little bit of, ``Hey, Chief, 
Christmastime is coming, and we were going to do ``x'' and 
``y'', and I was putting carpeting down, and now you are 
cutting back overtime on us.'' So I think 16 hours is a 
reasonable amount.
    From a cost comparison, and I do not have those numbers in 
front of me, the cost of hiring an officer, training them, 
versus that time-and-a-half overtime pay is really pretty 
close.

                 HIRING AND RETENTION OF SWORN OFFICERS

    Senator Durbin. I remember asking either you or a 
predecessor how many applicants you had to take to actually 
hire one Capitol policeman, and I think the number was 10, or 
something. Or at least interview 10 to find 1 officer. Is that 
still the norm? Is that still the case?
    Chief Gainer. That is close, but I can say that because of 
what Congress has done for this department in the way of 
salary, equipment, overtime, uniforms, training, and I think 
the patriotism of job seekers, we actually have people beating 
down our door. We are in a very good position to keep hiring, 
and the men and women we are hiring now are just very, very 
good.
    Senator Durbin. There was also a time when you were losing 
officers to TSA and other agencies that offered a different 
benefit package, different opportunities, different promotions, 
and such. Is that still the case?
    Chief Gainer. It is not. There is a slight attrition, and 
some of the officers leave to go to other agencies, and we, in 
fact, encourage them to do that if that is good for them and 
their family. But I think by and large we stemmed that tide of 
people walking out of here about 2 years ago. And I think many 
of the officers ascribe to the theory that you neither take nor 
leave a job just for the money.
    Senator Durbin. And what about diversity goals? Do you set 
those for your department?
    Chief Gainer. We do, and we have worked very hard on that. 
Just as an aside, I think we are just under--37 percent of our 
department right now is a minority. And at the last Federal 
analysis I believe we were ranked number two in Federal 
agencies as to the strength of our diversity.
    But probably as important as the diversity ratio are the 
career opportunities we offer. We have built on what previous 
chiefs have done. But what we have been able to do in these 
past 3 years is increase the number of minority officers who 
get into specialty positions, and especially who have been 
promoted to sergeant and lieutenant, and to captain, and now to 
inspector and to deputy chief. And so now we are seeing the 
fruits of the benefits, and that will continue to increase.
    Senator Durbin. I know about one of those personally 
because one of the officers that we have come to know quite 
well from his singing ability, Officer David Nelson, who I 
believe is now a sergeant.
    Chief Gainer. Yes.
    Senator Durbin. I congratulate him on that.
    If I could ask one last question, Mr. Chairman----
    Senator Allard. Yes. Go ahead.

                        MERGER OF POLICE FORCES

    Senator Durbin. I became concerned several years ago about 
the number of different police forces on Capitol Hill. The 
Supreme Court has their own. The Library of Congress had their 
own. Capitol Police had their own. And there are probably some 
of them missing; maybe the Government Printing Office. I am not 
sure.
    So we tried to integrate the Library of Congress into the 
Capitol Police, and it really was not welcomed by the Library 
of Congress. They were not looking for this change, but we were 
trying to move in that direction.
    Are we achieving that goal? I mean are we creating two 
forces where there used to be one? What can you tell me about 
the progress of moving toward an integrated force at the 
Library of Congress to meet their special needs for security, 
which are different than some other places, but also to kind of 
bring them into the Capitol Police family?
    Chief Gainer. Well, there is yin and yang in that, Senator. 
I do think that we have shared a lot of training with each 
other. Some of their sergeants and lieutenants have been in our 
class. We understand communication a bit more. But it has been 
a struggle.
    We now have an inspector who is supervising the Library of 
Congress police officers as well as 23 of our officers serving 
the LOC, and finally, after months of wrangling, the LOC 
permitted us to send a sergeant or lieutenant to help them.
    I still do not think it is widely well regarded by the 
Librarian and his Deputy. I will not try to speak for them. The 
very fact that in their budget that they ask for some 45 
officers and there was no consultation with this department or 
our inspector about the why or the how, again indicates to me 
that it is not their number one priority.
    As I have said before, if we were building law enforcement 
agencies up here, we would not do it as it was done. And I even 
suggested recently to the Librarian, there is an memorandum of 
understanding (MOU) that the committees literally forced 
everybody to sign to try to move this thing along and that MOU 
will expire.
    I would respectfully request that Congress take action on 
the very, very detailed merger plan that we submitted 2 years 
ago, or kill this thing, because it creates more work and 
energy for us than it is turning out to be worth.
    Senator Durbin. I agree with you. It has to be fish or 
fowl. We have to decide where we are going on this. And I just 
have to tell you that the idea and object here was not to 
dramatically increase the number of people guarding the Library 
of Congress, but rather to try to reach some sort of regularity 
here and consistency so that the Capitol Police could be 
involved in this.
    I know there were some different standards on retirement 
and hiring that had to be resolved. Maybe some grandfathers 
that had to be accommodated in the process. But I will, I 
promise you I will look at that, and I will talk to the 
chairman about it. I do not know if this is a new issue for 
him. It might be. But it is something that we need to show some 
leadership on. Thank you.
    Chief Gainer. But, Senator, if I may say, it is not all 
bad. Even if we walked away from the merger they kept our own 
department and we brought our people back, we are both better 
agencies for it, because, again, we are sharing training and 
information. They come each week, by our invitation into our 
intel meetings and our staff meetings, so there is some good 
that has come out of it.
    Senator Durbin. Well, I hope we can have even more good.
    Thank you very much.
    Senator Allard. Senator Durbin, I look to continue to visit 
with you on this particular issue. I just got a look at a 
letter to the editor here in Roll Call, and the issue that was 
brought out is that the Library is viewed by security as a weak 
link. And my question is: How much of a weak link are they? How 
vulnerable do they make the rest of the security system here on 
the Capitol?
    Chief Gainer. Well, there is that corner of the campus, I 
think, that is not doing as well as it could do. And again, I 
think the concept of the merger was to strengthen that. As the 
CVC opens and the tunnel is connected, it could exacerbate 
things. So it is not ideal, Senator.
    Senator Allard. And the testimony we got from this in the 
last hearing is that the head of the Library of Congress had 
not communicated with you on this request.
    Chief Gainer. That is correct.
    Senator Allard. Was there any communication at all, and do 
you feel that he should have had some discussion with you?
    Chief Gainer. Well, I do know this: When we put together 
our budget for both 2006 or the supplemental request, there 
were strong conversations with each Sergeant at Arms in their 
capacity as Sergeants at Arms even aside from the Board. So I 
think there needs to be a very good dialogue with the 
stakeholders so that we understand what the clients want and 
expect in order to determine what is the best way. And I have 
not seen that yet.
    Senator Allard. I think that that is our responsibility, to 
help make sure you get some clear guidance as to where to go in 
that order. So we will be working on that for you.

               FISCAL YEAR 2005 SALARY BUDGET DISCUSSION

    The other issue I wanted to bring up is, again, the 
changing figures that we have seen here lately. Originally, you 
showed a deficit of $10 million or so. Then it was considerably 
less than that. Now I see that you are looking to anticipate 
somewhere around a $25,000 surplus. Do you want to explain why 
those figures have changed?
    Chief Gainer. I sure do, Senator. In the late fall, early 
winter, November, December, the conference committee report was 
very clear to the Capitol Police to live within our budget and 
do not anticipate any supplementals and, obviously, not be in 
violation of the Anti-Deficiency Act. And there was not much 
support for the fact that how much work we were doing and how 
much overtime we had, and the fact that we knew we were going 
to run short of funding.
    So we were doing competing things, trying to work with the 
committees as to what we might need in order to keep up the 
security level at best practice standards, while at the same 
time ensuring no anti-deficiency sometime during this fiscal 
year.
    So I sat down with Jim Rohan, who is the Assistant Chief of 
Police, and Tony Stamilio, who is our Chief Administrative 
Officer, to look at where we could tighten our belt and try to 
provide security and ensure that we have the money to get 
through the year? And by doing that, we forced the operational 
commanders to be much more miserly in the use of overtime and 
to stop doing some things. Since then the amount of overtime 
has declined.
    We also had money in the budget that we are saving to use 
if we had to go to a full-time vehicle interdiction again like 
we did in August, September, October, November, where the 
officers would be out there 24/7 at these intersections, and 
the belt tightening eliminated a significant amount of that 
money.
    But it has been through belt tightening, eliminating 
projects, and stopping some security needs that we have driven 
down the money that we needed. And also during this time there 
were the ongoing conversations about whether we could use what 
had been designated emergency response funds or not, and 
finally the determinations and the directions came to use some 
of that, so that also took away some of the budget projection 
red balances.

             COMPETENCY PERFORMANCE-BASED MANAGEMENT SYSTEM

    Senator Allard. If you have been following some of the 
previous hearings, I am a strong believer in measuring 
performance, the intent of the Government Performance and 
Results Act. And from what I understand has happened, you have 
implemented two new competency performance-based management 
systems, one for senior executives and then another for 
civilian and sworn employees. And then the implementation of 
these systems was put on hold due to your operational demands 
placed on staff, such as preparing for the Presidential 
inauguration.
    Have you reinitiated the implementation of these 
competency-based performance management systems, and if so, 
what progress have you made in that regard?
    Chief Gainer. We have restarted them. The one for the 
executive team at the inspector and civilian director level 
have been implemented, and those personnel do now know their 
goals and objectives, and what is expected of them.
    The system implementation was delayed because of all the 
other operational requirements; we issued the order just in the 
past couple of weeks to start the program. The training is 
going on through the middle of May. So by June and July, people 
will have the renewed job performance appraisal system in 
place.
    Many of the leaders here were as disappointed as any to 
find that some people had not been rated or given any 
evaluations in 6, and 8, and 9 years. We now know that we have 
to concentrate not only on the operational business in 
emergencies, but we also have to keep the administrative and 
infrastructure business running.
    That has improved, because, again, Congress granted, 
especially the administrative side of the House, some 
significant civilian personnel. And our fiscal management, our 
human resources, our IT shops were terribly understaffed. And 
while we grew the sworn numbers by some 333, we just did not 
keep up with the administrative side.
    I am happy to say, with the guidance of the GAO, and they 
have been very helpful in the direction they have given us, and 
with the addition of the civilian staff that I believe we will 
be positioned to do well on our performance system. We have a 
very comprehensive strategic plan, and we are operating from a 
business perspective in the direction we should.

                        OFFSITE DELIVERY CENTER

    Senator Allard. Okay. Now talk a little bit about your 
offsite delivery center. In the pending supplemental you have 
$23 million for that offsite delivery center to replace the 
current facility on P Street.
    Chief Gainer. Yes, sir.
    Senator Allard. I guess I direct this to Mr. Hantman. What 
is the status of moving this project forward, and do you 
believe this amount will be sufficient?
    Mr. Hantman. Mr. Chairman, there have been a series of 
meetings over the last several weeks. What we have tried to do 
is take a look at alternative sites and work with the House and 
the Senate, to find out what sites they find took good 
candidates for it, and then try to lay out the different type 
of operating procedures that might be used at such an offsite.
    One of them would be a transfer type concept, where trucks 
would be brought in and offloaded, and then other in-house vans 
would be loaded, as the White House model does, to bring 
deliveries actually to the Senate side or other locations.
    The other concept is screening trucks as they exist and 
allowing them to make their designated runs throughout the 
campus.
    So those types of studies are being done right now, and the 
amount of money that would be necessary to accommodate either 
one of those profiles would really be determined by the 
individual site that the House and the Senate find best and 
most appropriate, in terms of travel distance to the Capitol. 
And those kinds of evaluations are still being done right now.
    The $23 million that is in the supplemental at this point 
in time and also in the budget of the Architect of the Capitol 
is based on a study that was done several years ago for a 
potential site on New York Avenue, using the cost of land over 
there and the potential construction. So that study needs to be 
updated relative to the particular site that essentially is 
determined as the most appropriate by the House and the Senate, 
and what type of facility goes on it.
    Senator Allard. Mr. Pickle, in regard to the operational 
model for the offsite facility, are we on the right track?
    Mr. Pickle. Mr. Chairman, the Board has unanimously 
approved a particular process that should be utilized for good 
offsite delivery security. We, the Senate, are much better 
prepared because of staffing and other support that we have. We 
are much better prepared to immediately begin that process once 
the offsite is completed.
    The House, for some other reasons, they have many more 
deliveries, they are not equipped either in staffing or other 
equipment resources to begin immediately.
    Senator Allard. They have almost twice as many deliveries 
than we do.
    Mr. Pickle. Yes, they do. We are prepared to move ahead 
immediately. The dilemma is the funding, as I understand it, 
may not be sufficient to build a site that would accommodate 
the correct procedures that the Capitol Police Board have 
approved. The dilemma is pretty much this way.
    We need the flexibility to do what we need to do for the 
Senate, and the House will eventually catch up with us and they 
will also adopt those protocols; this is my understanding. But 
there is no disagreement among Mr. Livingood, or myself, or the 
Chief on that. We know the process that needs to be 
implemented, but we need the funding to make sure that the 
flexibility is there for both the House and Senate to adopt the 
same process.
    Again, the Senate is ready to proceed. The House has some 
more resource issues that they have to focus on with the 
Architect.
    Senator Allard. And your funding request includes that?
    Mr. Pickle. The $23 million funding in the supplemental was 
put in there because that is what, based on the study Mr. 
Hantman just referred to, that would be sufficient to 
accommodate what we both need.
    Senator Allard. Okay.
    Mr. Pickle. We find now that that $23 million may or may 
not do it, simply because the price of real estate has gone up, 
especially since the Washington Nationals baseball team has 
moved into Washington, DC causing real estate prices in the 
area the House would use as an offsite delivery location to go 
up quite a bit.
    I would also like to say that the Senate does not really 
care where this site is, and we have been very clear about 
that. We are prepared to immediately start the process once the 
site is picked. We are just waiting for the funding to match up 
with the results of his study, so we can get moving.

                           MOUNTED HORSE UNIT

    Senator Allard. Okay. I want to bring up the mounted horse 
unit with you, Chief Gainer. Now it has been in place just a 
short period of time.
    Chief Gainer. Just about 1 year.
    Senator Allard. Can you tell me whether you feel it has 
been effective or not, and what specific improvements has it 
brought, and how high a priority do you place in continuing 
this unit?
    Chief Gainer. Through my police career I have seen what 
mounted units have done, and that goes back to the late 
sixties, where I spent the first 20 years of my career on the 
Chicago Police Department. Mounted units are unbelievably 
effective in crowd management, whether that is from a positive 
point of view in just managing a crowd, or disruptive crowds in 
calming them. That was one of the reasons that I first 
approached the Board and then the committees to do that, to 
have a mounted unit.
    The training is rigorous, and we have some great personnel 
riding the horses. And we have used them in crowd control 
exercises up here as recently as yesterday. The officers on 
those horses have also issued tickets. They have found a lost 
child. They have responded to any number of hazardous device 
incidents, where they have helped manage the crowd.
    They are a wonderful PR asset, too. I daresay they are 
probably the most often photographed thing in addition to the 
Capitol Dome, or if you can juxtaposition them against the 
Dome, that would be the most taken picture by visitors.
    And there is something very positive about that----
    Senator Allard. Yes.
    Chief Gainer [continuing]. For people to feel they can 
approach a police officer. Because, again, over my 27 years, 
what we did, we got in squad cars, we rolled the windows up, 
turned the air-conditioners on, and put personal radios on, and 
you did not communicate with the outside.
    The officers are out there. They are visible. They are 
interacting. They can see above the crowd. They can move in 
areas around this campus, where neither cars, nor bikes, nor 
motorcycles can go. So I think they are value added, and I hope 
that we have another year or two out of this to convince the 
Congress that they are value added.
    Senator Allard. And you do not see any increased 
vulnerability to the officer on the horse. In fact, you see 
just the opposite, is that right?
    Chief Gainer. They very much have a calming effect. And 
clearly, what the studies and experience indicate is that a 
mounted rider is equivalent to 10 foot officers. So it is a 
force multiplier, if you will, and when you see them wade into 
a crowd, especially a hostile crowd, you can very easily bring 
peace and tranquility.
    Senator Allard. Now if you are recruiting in the State of 
Colorado, it probably would not be as difficult to find 
somebody who knows how to ride a horse. Are you able to find 
officers who have riding skills that can qualify for the job?
    Chief Gainer. Well, we are finding them. And interestingly 
enough, even again, I will go back to my Chicago days. The 
Chicago Police Department sent their personnel out to the 
United States Park Police, who is considered one of the model 
agencies in training, which is where, when we restarted the 
Metropolitan Police Department's unit I sent the officers and I 
sent our Capitol Police officers there. And you will get most 
trainers to say they would prefer to have someone who does not 
have a lot of riding experience, so you do not have to break 
them of bad habits.
    I can say this: One of our sergeants that went through this 
training, I think he is the oldest individual who has ever 
completed the Park Police training. And we have good men and 
women out there riding horses. That is not a problem.

                CAPITOL VISITOR CENTER SPACE FOR POLICE

    Senator Allard. Good. Thank you. Now how about your space 
in the visitor center? Are there sufficient funds in the budget 
to complete the fit out of the space for the Capitol Police in 
the visitor center?
    Chief Gainer. The Senate, I believe, is allocated funds 
that would take care of what is designated the Senate portion, 
and their share of the police portion. And I think that is in 
the Architect's budget. I think the House is still working on 
their share, if I am not mistaken, to fully fund that. But, 
again, that is part of the interesting issue with the Capitol 
Police department up here, and how, we have an artificial line 
that goes down some offices, and where half belongs to one body 
and half the other, and to figure out how we buy the desk, and 
the paper, and the furniture. It is being worked on, sir.
    Senator Allard. So you are having to kind of divide out 
half furniture, House, half furniture, Senate. Is that where 
you are at right now?
    Chief Gainer. Yes. But we are working with everybody to do 
that.
    Senator Allard. Okay.
    So you will have more to report on that later.
    Chief Gainer. Yes, sir.

                           FAIRCHILD BUILDING

    Senator Allard [continuing]. Okay. Now on the Fairchild 
building, the Architect of the Capitol is leasing and fitting 
out several floors of the Fairchild building for the Capitol 
Police. Can you brief the subcommittee on the status of that 
effort? And when do you feel it will be ready to be occupied, 
and what needs we may have in that facility?
    Chief Gainer. Sure. We think our first--we hope our first--
well, we have some people in there now in swing space, because 
we are moving them out of our headquarters, and there are some 
people in old space in the Fairchild. We think the new 
remodeled space will probably be ready. The target is sometime 
June. I am going to suspect late June, maybe early July, where 
we finally have a finished space where we can move people in 
there.
    The Architect and his staff have been very, very helpful in 
support of--given all the things everybody asks the Architect 
to do. It has been a costly operation. We are seeking funding 
for some of the security mechanisms that would be needed there, 
because we are taking over a large portion of the building, and 
it does not--with some very important units and documents for 
which we have asked for just under $1 million-ish to fund some 
of those security needs. So there are still some needs and 
there some time.
    But again, the whole issue about being in that building 
really revolves, again--Congress was very good in growing the 
department by some 333 sworn since 9/11. But the space that we 
occupy continues to shrink up until these recent moves.
    The Fairchild building was always meant to satisfy a 
temporary issue. And again, we would implore both the House and 
the Senate to consider our requests for a new Capitol Police 
headquarters, ultimately, that we might move into in 5, or 6, 
or 7 years.
    Senator Allard. Okay. Gentlemen, that takes care of my 
questions. And so we will go ahead and call this part of the 
hearing--we will dismiss this panel and then we will call on 
the next panel, which would be the Capitol Guide Board.
    I want to thank you all for your hard work and dedication, 
and all the fine people that you have underneath you, and all 
their fine work. I know they put in long, hard hours, and we 
appreciate that.
    Chief Gainer. Thank you, Senator.
    Senator Allard. Thank you.
                          CAPITOL GUIDE BOARD

STATEMENT OF HON. WILLIAM H. PICKLE, CHAIRMAN
ACCOMPANIED BY:
        BILL LIVINGOOD, HOUSE SERGEANT AT ARMS
        ALAN HANTMAN, ARCHITECT OF THE CAPITOL
    Mr. Pickle. Mr. Chairman, unfortunately, you get to look at 
us a little longer.
    Senator Allard. We now have the Capitol Guide Board, which 
is Mr. Hantman, Mr. Pickle, and Mr. Livingood.
    Mr. Pickle. I think this is kind of unusual. This is the 
first time in a number of years that the Capitol Guide Board 
has testified.
    Senator Allard. New leadership on the subcommittee.

                  OPENING TESTIMONY OF WILLIAM PICKLE

    Mr. Pickle. But the Capitol Guide Service does a wonderful 
job, and by any measure, they are one of the best tour services 
in the world. So far this year they have accommodated more than 
200,000 visitors, and we believe that by October we may 
approach up to 1.5 million.
    The role of the Guide Service has changed quite 
dramatically since 9/11, like so much here. Prior to 9/11, it 
was more for tours and informational services. Since 9/11 they 
have become a very integral part of security. They help the 
police department in such things as emergency evacuation of 
tourists. Most of these visitors have never been in this 
building, and it is absolutely critical, as you have seen 
during some of the evacuations, that we have people who are 
trained to get people out of the building without hurting them 
and without causing more harm.
    We, today, have about 70 guides. And they handle roughly 
1,900 to 2,000 public visitors a day. The numbers are 
compounded by the fact that staff-led tours now total almost 
6,000 people a day. So we keep our tour guides busy not only 
with their own tours, but helping the staff as well.
    Tours are going to become a little more complicated as we 
get into the CVC, because, obviously, the jurisdiction or the 
role of the tour guide service will expand dramatically. To 
what degree, we do not know. That is still up to the governance 
board, and the House and Senate leadership who, as you know, 
are trying to decide just how this is going to be structured.
    But for 2006, we are pretty stable. We are asking for 
$254,000 more in the budget. It is a small 6.6 percent 
increase, and essentially covers COLAs and other minor 
expenses. We are not asking for any more positions this year. 
We believe additional positions for the CVC will be requested 
in next year's budget request.
    To show you the magnitude of what the Capitol Visitor 
Center is going to mean to the Guide Board, a consulting 
company that has been helping for the last several years and 
working with the Architect and that specializes in museums and 
large institutions, has indicated to us that their analysis 
shows we will need 161 guides to manage the CVC and the 
Capitol. This is because there are so many more 
responsibilities that the Guide Service will be required to 
take on in the visitor center. It is going to be a challenging 
year for us as we prepare for the CVC to open.

                           PREPARED STATEMENT

    I have nothing more, but we are here to answer any 
questions you may have, Mr. Chairman.
    [The statement follows:]

                Prepared Statement of William H. Pickle

    Mr. Chairman and Members of the Committee, thank you for 
this opportunity for the Capitol Guide Board to appear before 
the Committee. I am pleased to come before you today to report 
on the operations of the Capitol Guide Service and the 
Congressional Special Services Office (CGS/CSSO). With me today 
are Mr. Wilson Livingood, the House Sergeant at Arms and Mr. 
Alan Hantman, the Architect of the Capitol, who join me as 
Members of the Capitol Guide Board. Mr. Tom Stevens, Director 
of the Capitol Guide Service, is also with me today.
    The primary function of the Capitol Guide Service is to 
provide an enjoyable and accessible visit to the United States 
Capitol for over 1.5 million visitors annually. So far this 
fiscal year, the Guide Service has accommodated more than 
200,000 visitors on public tours alone. Also this year, the 
Guide Service has led approximately 55,000 visitors on Member 
Reserved Group tours, 7,500 on Congressional member tours 
(early-morning tours), 2,500 on Dome tours and more than 1,000 
visitors on adaptive tours for visitors with disabilities. 
Additionally, the Guide Service through its Congressional 
Special Services Office, has provided over 500 hours of sign 
language interpreting services for Congressional business. 
These numbers represent the non-peak season. If current levels 
are an indicator, we may reach 1.5 million visitors to the 
Capitol before October. The Guide Service has also trained over 
1,500 Congressional staff to give tours so far this year. 
During the peak season staff bring approximately 6,000 visitors 
to the Capitol each day.
    The Capitol Guide Service has been in existence since 1876, 
employing five guides when it was established for the 
centennial celebration. The Capitol Guide board--similar in 
composition to the Capitol Police Board (House and Senate 
Sergeants at Arms and Architect of the Capitol)--was 
established in 1970 to formalize the Guide Service as a 
professional entity within the Congress and to supervise and 
direct its operation.\1\ The authorizing legislation in 1970 
called upon the Guide Service, which employed twenty-four 
guides at the time, to ``assist the Capitol Police by providing 
ushering and informational services, and other services not 
directly involving law enforcement, in connection with 
ceremonial occasions in the Capitol or on Capitol Grounds,'' 
among other duties.
---------------------------------------------------------------------------
    \1\ Effective January 3, 1971, Public Law 91-510 made the tour 
guides legislative employees under the jurisdiction of the Capitol 
Guide Board. The first free guided tour was conducted on January 3, 
1971.
---------------------------------------------------------------------------
    The role of the Guide Service in those days--pre 9/11--was 
to provide guided tours and informational guidance to visitors 
to the Capitol. Since then, the role of the Guide Service has 
expanded to include a quasi-security function. Following the 
events of 9/11, we called upon the Guide Service to assist the 
Capitol Police with emergency preparedness. Guide Service 
management is now equipped with emergency radios, providing a 
communications bridge to the Guide Service's own radio system. 
All Guide Service personnel have been trained in evacuation 
procedures. It falls to the Guide Service staff to assist the 
Capitol Police in the evacuation of those on public tours, who 
for the most part, have never been inside the Capitol Building 
before.
    Today, we have seventy guides to perform these services. We 
welcome the opportunity to increase the duties of the Guide 
Service to meet the needs of the Congressional community as we 
transition to the Capitol Visitor Center.
    For fiscal year 2006, the Guide Service is requesting a 
total budget of $4,098,000, which is an increase of $254,000 or 
6.6 percent over the fiscal year 2005 budget. Of that amount, 
$228,000 (90 percent) of this increase over fiscal year 2005 
includes the estimated fiscal year 2006 COLA and increases in 
personnel benefits. The requested increase will enable the 
Guide Service to maintain the level of service currently being 
provided to Members of Congress and their guests based on 
current visitation volume and services provided. While the 
Board anticipates hiring additional staff to operate in the 
CVC, funding for those additional FTE's is included in the CVC 
startup budget, therefore, these positions are not requested in 
this fiscal year 2006 submission.
    The staff of the Capitol Guide Service and its 
Congressional Special Services office has done a tremendous job 
in providing the utmost in visitor services to all who come to 
experience the Capitol. The accomplishments of this office 
would not be possible without the support of this Committee. We 
thank you for your support and the opportunity to present this 
testimony and answer your questions.

    Senator Allard. I wanted to have an opportunity to see what 
the makeup of the Board is and have a chance to visit with you 
a little bit about it. And I realize that it has not been on 
anybody's radar screen, but I also think that this is a unique 
time, with us moving into the new Capitol Visitor Center, and 
would like to have some assurance from you that some thought 
was being given about what I foresaw as some changing dynamics 
in the way those tours may be handled----
    Mr. Pickle. Absolutely.

                            STAFF LED TOURS

    Senator Allard [continuing]. As we move into the new 
Capitol Visitor Center, and perhaps some jurisdictional 
concerns, which you alluded to, as far as the House and the 
Senate are concerned.
    We have 6,000 people led in daily, what we call staff-led 
tours, and then you have 2,000 visitors that come through your 
regular Guide Service. And the staff-led tours, these are staff 
from the individual congressional offices. That is a pretty 
sizeable number that we have our staff doing.
    Do you see a problem with the staff-led tours?
    Mr. Pickle. There is a real problem with staff-led tours, 
and it is that we want the tours to be worthwhile for visitors. 
They should be enjoyable and a learning experience. And quite 
honestly, we do not think we are getting the bang for the buck 
on these tours.
    The Guide Service works hard to train staff members in each 
office and on each committee to give a good tour. But the 
situation is more difficult when you have thousands of people 
in the Capitol.
    As you know, it is tough to walk from one end of the 
Capitol to the other during the middle of the day. Both the 
House and the Senate are working with the Guide Service Board 
now to come up with an alternative plan, or something that will 
make the tours a more enjoyable experience.
    We are sending a letter out on the Senate side today to all 
of the committees and all the offices reminding them of the 
rules for staff-led tours. We are also reminding them that the 
building will only hold so many people, then it becomes unsafe, 
and when we reach that limit, we will be canceling or stopping 
tours for a period of time. Mr. Livingood has been doing that 
for the last several weeks on the House side.
    Senator Allard. I would guess that you have a lot more 
staff-led tours on that side.
    Mr. Pickle. It is considerably more.
    Senator Allard. Do we have an idea of how many of these are 
Senate-led staff tours and how many are House-led staff tours? 
Any idea on that?
    Mr. Pickle. Two-thirds are House--4,000 House, 2,000 
Senate.
    Senator Allard. Okay.
    I think that is all. I just wanted to let you know we are 
looking at and thinking about the tours, and we need to have a 
little public discussion about it. But I think that as a new 
member of this subcommittee and also as its chairman that I 
need to do everything I possibly can to inform myself on the 
workings of the Capitol and the surrounding facilities that we 
have.

                          SUBCOMMITTEE RECESS

    So, again, I want to thank you for all your hard work. And 
the subcommittee stands in recess until May 11, when we will 
take testimony from the Government Printing Office and the 
Congressional Budget Office.
    And thank you, gentlemen, for your hard work.
    Mr. Pickle. Thank you, Mr. Chairman.
    Senator Allard. Thank you.
    [Whereupon, at 12:15 p.m., Wednesday, April 27, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, May 11.]
</pre></body></html>
